Departamento de Justicia de los Estados Unidos
Oficina del Inspector General




Una evaluación del incidente de
septiembre de 2005 entre el Negociado
Federal de Investigaciones y Filiberto
Ojeda Ríos




                  DRAFT
              RESUMEN EJECUTIVO


                                     Oficina del Inspector General
                                                   Agosto de 2006
I.    Antecedentes

      El 23 de septiembre de 2005, agentes del Negociado Federal de Investigaciones
[Federal Bureau of Investigation (FBI)] intentaron detener al fugitivo de hace mucho
tiempo Filiberto Ojeda Ríos (Ojeda) en un domicilio en una ladera rural cerca de
Hormigueros, Puerto Rico. Ojeda era uno de los fundadores y líderes del Ejército
Popular Boricua, también conocido por los “Macheteros”, una organización que se
atribuyó crédito por diversos delitos violentos durante el periodo entre fines de la
década del 70 y la década del 80, en la lucha por la independencia de Puerto Rico.

       Un equipo de agentes del FBI intentó entrar a la residencia para detener a
Ojeda a las 4:28 p.m. El operativo resultó en un tiroteo breve, pero intenso, entre
Ojeda y el FBI. Tres agentes fueron heridos de bala, uno de ellos gravemente; Ojeda
no fue alcanzado por los disparos. Los agentes no entraron a la casa ni completaron
el arresto. Un cese al fuego siguió al tiroteo durante el cual la esposa de Ojeda se
rindió y agentes del FBI dialogaron con Ojeda. A las 6:08 p.m., un agente del FBI vio
a Ojeda por una ventana y le hizo tres disparos. Varios agentes oyeron a Ojeda gritar
y caer. El FBI no entró a la casa hasta poco después del mediodía del día siguiente,
cuando los agentes encontraron a Ojeda tirado en el piso y muerto debido a una
única herida de bala que le perforó uno de sus pulmones.

      Periodistas, autoridades electas y activistas en Puerto Rico criticaron al FBI por
usar fuerza excesiva para la captura de Ojeda, por llevar a cabo el operativo en El
Grito de Lares (un feriado muy importante para el movimiento a favor de la
independencia de Puerto Rico), y por esperar 18 horas después de que Ojeda fuese
herido para entrar a la casa, lo que permitió que Ojeda muriera desangrado.

      El 26 de septiembre, el Director del FBI Robert Mueller solicitó que la Oficina
del Inspector General [Office of the Inspector General (OIG)] llevara a cabo una
investigación para determinar los hechos y circunstancias del incidente del disparo
recibido por Ojeda y para realizar recomendaciones sobre qué acciones, si las hubiera,
el FBI debería tomar en relación al hecho. El FBI y el Secretario de Justicia de los
Estados Unidos también recibieron solicitudes por escrito de varios Representantes
de los Estados Unidos y otras autoridades electas, acerca de una investigación
independiente sobre las circunstancias de la muerte de Ojeda.

      La OIG inició esta investigación al recibir la solicitud del Director Mueller. En
agosto de 2006, completamos un informe con 172 páginas, en el cual detallamos
nuestras conclusiones y recomendaciones. Este Resumen Ejecutivo, que también
estará disponible en español, resume el informe completo.


II.   La metodología de la investigación realizada por la OIG

      El objetivo de la OIG al realizar esta revisión fue investigar los hechos
asociados al incidente y (1) determinar si los agentes del FBI que participaron en el


                                        1
operativo cumplieron con la Política de Fuerza Mortal del Departamento de Justicia;
(2) evaluar la decisión del FBI de realizar un ataque urgente a la luz del día contra el
domicilio de Ojeda, en vista de otras opciones potenciales para capturarlo; (3) evaluar
la planificación y realización por el FBI de negociaciones con Ojeda durante el cese al
fuego; (4) determinar los motivos por los cuales el FBI esperó 18 horas después del
tiroteo para entrar al domicilio; y (5) evaluar las comunicaciones entre el FBI, el
Estado Libre Asociado de Puerto Rico y el público con relación al operativo. A medida
que prosiguió la investigación, la OIG identificó varios problemas adicionales, de los
cuales trata este informe, incluyendo las alegaciones anónimas de que el FBI había
dejado pasar numerosas oportunidades de detener a Ojeda bajo circunstancias con
menos probabilidades de resultar violentas.

       La investigación de la OIG fue realizada por un equipo de abogados y Agentes
Especiales de la OIG. En el curso de la investigación, la OIG entrevistó a más de 60
personas, incluyendo personal de la División de Contraterrorismo del FBI en
Washington, D.C., y agentes del Grupo de Respuesta a Incidentes Críticos [Critical
Incident Response Group (CIRG)] del FBI en Quantico, Virginia. Estas entrevistas
incluyeron a todos los agentes que descargaron sus armas o participaron en alguna
otra forma en el ataque al domicilio de Ojeda, así como otros agentes del CIRG que
planificaron, participaron en el operativo, o tuvieron conocimiento del mismo.
También entrevistamos a personal de la División de San Juan del FBI (San Juan FBI)
y la Fiscalía Federal para el Distrito de Puerto Rico que tuvo participación en el
asunto Ojeda. Los investigadores de la OIG entrevistaron a autoridades del
Departamento de Justicia del Estado Libre Asociado de Puerto Rico y la Policía de
Puerto Rico [Police of Puerto Rico (POPR)]. También hablamos con varias personas
que viven en el área próxima al domicilio de Ojeda.

      La OIG analizó miles de páginas de documentos generados por el FBI y la
Fiscalía Federal asociados con el asunto Ojeda, incluyendo Planes y Órdenes de
Operativos finales y en borrador, expedientes de investigación, documentos del
tribunal, fotografías, registros, informes de inteligencia, mensajes de texto y políticas,
procedimientos y manuales de entrenamiento pertinentes del FBI.

       Además, la OIG analizó informes forenses pertinentes preparados por el
Instituto de Ciencias Forenses asociados con el incidente Ojeda. Estos informes
incluían el informe de autopsia, análisis de balas y casquillos de bala, análisis de
trayectoria, reconstrucción del tiroteo y análisis de patrón de sangrado. También
realizamos tres entrevistas de larga duración con el Dr. Pio R. Rechani López,
Director Ejecutivo del Instituto, y otros científicos que participaron en la preparación
de los informes forenses. La OIG agradece la cooperación del Secretario de Justicia
de Puerto Rico Roberto J. Sánchez Ramos y del Dr. Rechani por poner a nuestra
disposición dichos informes forenses y científicos.

      La OIG también consultó al Instituto de Patología de las Fuerzas Armadas del
Departamento de Defensa de los Estados Unidos, Oficina del Examinador Médico de
las Fuerzas Armadas [Office of the Armed Forces Medical Examiner (OAFME)] sobre


                                         2
cuánto tiempo vivió Ojeda después de haber sido alcanzado por el disparo. La
OAFME proporcionó un informe escrito sobre el asunto y respondió a las preguntas
de la OIG.

      Además, la OIG contrató a tres peritos en operaciones policiales tácticas para
que aportaran sus opiniones expertas y orientación sobre las decisiones tácticas del
FBI en el operativo Ojeda y el cumplimiento por los agentes de la Política de Fuerza
Mortal del Departamento de Justicia: (1) Ronald M. McCarthy, un pasado Supervisor
de Campo de la Unidad Táctica del Departamento de Policía de los Ángeles, quien
anteriormente fue miembro del comité de revisión de Waco del Departamento de
Justicia y quien ha brindado su testimonio ante el Congreso de los Estados Unidos
como experto en operaciones especiales de la policía; (2) Michael S. Foreman, pasado
Jefe de la Oficina del Sheriff del Condado de Orange, Florida, con 24 años de
experiencia en el área de armas y tácticas especiales como líder de equipo y
comandante de SWAT; y (3) Gary Van Horn, el Director Auxiliar de la Oficina de
Fuerzas del Orden Público y Seguridad del Departamento del Interior de los Estados
Unidos con 30 años de experiencia en las fuerzas del orden público.

       Durante el curso de su revisión, la OIG no logró entrevistar a algunos testigos y
obtener algunos materiales de pertinente potencialidad. El abogado de la viuda de
Ojeda rechazó nuestra solicitud de entrevistarla, así como nuestra solicitud de acceso
al domicilio de Ojeda. El Departamento de Justicia del Estado Libre Asociado de
Puerto Rico rechazó nuestra solicitud de acceso a las declaraciones recogidas de
aproximadamente 40 testigos, incluyendo personas que viven en el vecindario
próximo al domicilio de los Ojeda, así como un informe de peritaje preparado por el
Estado Libre Asociado con relación a la cantidad de tiempo que vivió Ojeda después
de haber recibido el disparo. Una Comisión del Colegio de Abogados de Puerto Rico
llevó a cabo una investigación del incidente Ojeda; sin embargo, el Colegio de
Abogados no respondió a solicitudes de informaciones recabadas en dicha
investigación, que le hizo la OIG por teléfono y por escrito. Sin embargo, creemos que,
si bien dicha información podría haber sido útil para la investigación realizada por la
OIG, nuestras conclusiones no se vieron afectadas de forma material por esta
negativa de acceso a la misma.


III.   Planificación del Operativo

      En esta sección del Resumen Ejecutivo, la OIG resume información histórica
asociada a Ojeda y los Macheteros, y luego describe la planificación del FBI para el
operativo del arresto de Ojeda.

       A.   Antecedentes Históricos Asociados a Ojeda y los Macheteros

      Ojeda nació en Puerto Rico en 1933. A mediados de la década del 70, Ojeda
ayudó a organizar los Macheteros. El objetivo público declarado de los Macheteros es
lograr la independencia de Puerto Rico a través de la lucha armada contra el gobierno


                                        3
de los Estados Unidos. El FBI considera a los Macheteros una organización
terrorista. Ojeda era el líder y portavoz de los Macheteros.

      Los Macheteros se han atribuido la responsabilidad de diversos actos de
violencia en Puerto Rico, tales como el asesinato de un oficial de la policía en
Naguabo, Puerto Rico, en agosto de 1978, y el asesinato de marineros de la Marina
de los Estados Unidos en Puerto Rico en 1979 y 1982.

       Los Macheteros también asumen la responsabilidad por numerosas bombas qu
explotaron en Puerto Rico. El 17 de octubre de 1979, los Macheteros realizaron ocho
ataques con bombas contra varias instalaciones federales en todo Puerto Rico. En
enero de 1981, la organización utilizó bombas para destruir nueve aviones de
combate de los EE.UU. en la Base Aérea de la Guardia Nacional Muñiz en Carolina,
Puerto Rico. Más tarde el mismo año, los Macheteros colocaron bombas en tres
edificios distintos de la Compañía de Electricidad de Puerto Rico [Puerto Rico Electric
Company]. En 1983, los Macheteros dispararon un Arma Antitanque Liviana
(comúnmente denominada cohete LAW, por sus siglas en inglés “Light Anti-Tank
Weapon”) hacia dentro del Edificio Federal de los Estados Unidos en Hato Rey, Puerto
Rico, provocando daños en las oficinas del Departamento de Agricultura de los
EE.UU. y del FBI. En enero de 1985, los Macheteros dispararon un cohete LAW
hacia dentro de un edificio en el Viejo San Juan que alojaba al Servicio Federal de
Alguaciles y otras dependencias federales.

      Los Macheteros también llevaron a cabo robos para financiar sus actividades,
incluyendo el robo de 7.1 millones de dólares a un establecimiento de Wells Fargo en
West Hartford, Connecticut, el 12 de septiembre de 1983. El robo al Wells Fargo fue
uno de los más grandes robos a bancos de la historia de los Estados Unidos.

       El 30 de agosto de 1985, el FBI realizó un operativo de gran escala en Puerto
Rico para detener a Ojeda y a otros presuntos miembros de los Macheteros en
conexión con el robo al Wells Fargo. De acuerdo con informes de la época del FBI,
Ojeda no respondió a avisos audibles de agentes sobre su presencia e intención de
realizar un allanamiento en su domicilio. Cuando el FBI entró al domicilio de Ojeda,
éste le disparó al equipo de arresto varios tiros desde arriba de una escalera. Uno de
los disparos rebotó e hirió a un agente, dejándolo permanentemente ciego de un ojo.
Ojeda hizo más disparosy amenazó con disparar contra cualquiera que intentara
subir la escalera. Después de dialogar con los agentes, Ojeda permitió que su esposa
se rindiera al FBI. Unos minutos más tarde, Ojeda apareció al pie de la escalera
sujetando una pistola en su mano izquierda y un arma de hombro tipo Uzi en su
mano derecha. Los agentes le ordenaron en español e inglés que soltara las armas.
De acuerdo con los agentes, en ese momento Ojeda levantó la pistola. Uno de los
agentes le disparó a Ojeda. El disparo le pegó a la pistola de Ojeda, haciendo que
cayera de su mano. Ojeda soltó la Uzi y los agentes lo sometieron a la obediencia.




                                       4
      Ojeda se representó a sí mismo en su juicio de 1989 en Puerto Rico por el
cargo de atacar a agentes del FBI durante un operativo de arresto, y argumentó
defensa propia. Fue absuelto por un jurado.

       Ojeda fue liberado bajo fianza a la espera de ser juzgado en Connecticut por
cargos asociados con el robo a la Wells Fargo. El 23 de septiembre de 1990, Ojeda se
quitó su dispositivo de monitoreo electrónico y anunció que había vuelto a la
clandestinidad para continuar con la lucha contra el gobierno de los Estados Unidos.
Por lo tanto, Ojeda violó las condiciones de su libertad condicional y se convirtió en
fugitivo federal. El día siguiente, el Tribunal Federal de Distrito en Connecticut
emitió la orden de arresto contra Ojeda bajo el cargo de incumplimiento de fianza.
En julio de 1992, Ojeda fue juzgado a rebeldía en Connecticut y fue hallado culpable
de 14 cargos asociados con el robo a la Wells Fargo; recibió una multa de $600,000 y
fue sentenciado a 55 años de prisión.

       Después de tornarse fugitivo en 1990, Ojeda en forma periódica concedía
entrevistas a los medios en Puerto Rico, y sus discursos grabados se transmitían en
mítines por la independencia. De acuerdo con informes de los medios y los
expedientes del FBI, en dichas declaraciones Ojeda reiteró que los Macheteros
seguían activos como organización y que él seguía promoviendo una “lucha armada”
por la independencia. En 2003, Ojeda emitió una carta en la que condenaba un
aviso de “buscado” del FBI que incluía una fotografía de su esposa. Ojeda describió a
los Macheteros como “indestructibles” e instó a sus seguidores a que le enviaron los
nombres de agentes del FBI en Puerto Rico para publicación futura.

      B.    El FBI ubica a Ojeda en Hormigueros

      El operativo del arresto de Ojeda fue la culminación de una importante labor de
investigación llevada a cabo por el FBI de San Juan encabezada por el Agente
Especial a Cargo [Special Agent in Charge (SAC)] Luis Fraticelli. A principios de
septiembre de 2005, el FBI de San Juan determinó que era posible que Ojeda y su
esposa estuvieran viviendo en una casa en una zona rural de Hormigueros, al lado
oeste de Puerto Rico. En ese entonces, el FBI de San Juan no había visto a Ojeda en
la casa. La preocupación del FBI de San Juan era que lo remoto del lugar y el
terreno accidentado pudieran dificultar la tarea de confirmar la presencia de Ojeda a
través de técnicas convencionales de vigilancia.

      C.    Despliegue del Equipo de Rescate de Rehenes

      El 13 de septiembre de 2005, la Sede Central del FBI aprobó una solicitud del
SAC Fraticelli para desplegar al Equipo de Rescate de Rehenes [Hostage Rescue Team
(HRT)] del FBI para llevar a cabo una evaluación táctica para detener a Ojeda. Con
sede en Quantico, Virginia, el HRT es un equipo táctico a tiempo completo y con
alcance nacional que, entre otras misiones, se despliega para brindar apoyo a los
operativos de la división local del FBI. El HRT es un componente de la División de
Apoyo Táctico en el Grupo de Respuesta a Incidentes Críticos [Critical Incident


                                       5
Response Group (CIRG)] del FBI, que incluye la Unidad de Operativos y
Adiestramiento y la Unidad Táctica de Helicópteros. La Unidad de Operativos y
Adiestramiento brinda apoyo al HRT a través del suministro de servicios de dirección,
planificación y supervisión de operativos durante despliegues del HRT. La Unidad
Táctica de Helicópteros proporciona apoyo aéreo.

       El FBI de San Juan buscó la asistencia de “francotiradores-observadores” para
llevar a cabo una vigilancia encubierta para determinar si Ojeda estaba presente y
para recabar inteligencia relacionada con un arresto. 1 Además, el SAC Fraticelli dijo
que buscó la pericia del HRT para llevar a cabo el arresto, ya que le preocupaba que
Ojeda iniciara un nuevo tiroteo con el FBI y que usara granadas o explosivos.

       D.     Los Planes de Vigilancia y Arresto

      Los agentes del HRT y la Unidad de Operativos y Adiestramiento prepararon
planes para un operativo compuesto por dos fases: una fase de vigilancia, seguida de
una fase de arresto. Durante la fase de vigilancia, un equipo de francotiradores-
observadores del HRT llevaría a cabo la vigilancia encubierta del domicilio, con
énfasis en confirmar la presencia de Ojeda. Los francotiradores-observadores
también recabarían otras informaciones pertinentes para un potencial operativo de
arresto, tales como identificar la ubicación y composición de “puntos de brecha”, por
donde los agentes responsables por el arresto pudieran entrar al domicilio.

      El plan también requería la formación de una Fuerza de Reacción Rápida
compuesta por agentes del HRT y el FBI de San Juan en vehículos estacionados en
una ubicación a corta distancia del domicilio de Ojeda. La función de la Fuerza de
Reacción Rápida sería extraer a los francotiradores-observadores, en caso de peligro y
estar preparados para contingencias asociadas al arresto.

      Los planificadores del FBI no hicieron planes detallados para la fase de arresto
antes del operativo, pues preveían que la táctica específica dependería, en gran parte,
de los resultados de la fase de vigilancia. La preferencia y concentración principal del
HRT era realizar el arresto fuera del domicilio como, por ejemplo, detener el vehículo
cuando Ojeda saliera de su domicilio o se dirigiera al mismo.

      El plan del FBI no incluyó una alternativa en la cual el FBI podría rodear el
domicilio y exigir que Ojeda se entregara, ni siquiera como el procedimiento a seguir
menos preferido. El SAC Fratelli le dijo a la OIG que deseaba evitar una situación a
distancia o de “sujeto atrincherado”, ya que le preocupaba que simpatizantes de los
Macheteros se reunieran cerca del lugar de los hechos en cantidades, y que la
situación resultara difícil de controlar.

       1 En el FBI, un “francotirador-observador” es un agente con gran entrenamiento en
puntería, destrezas de campo y observación. Los equipos de francotiradores-observadores
destacados son responsables de recabar y transmitir inteligencia sobre un objetivo,
respondiendo a las amenazas inminentes y proporcionando apoyo para ataques tácticos.


                                             6
      Al prepararse para el operativo, el Comandante y Comandante Adjunto del HRT
decidieron no incluir negociadores de la Unidad de Negociación de Crisis [Crisis
Negotiation Unit (CNU)] del CIRG en Quantico como parte del equipo. Sin embargo,
el SAC Fraticelli hizo los arreglos para que estuvieran dos negociadores capacitados
del FBI de San Juan disponibles durante el operativo.

      De acuerdo con las directrices de crisis de manejo del FBI, el plan para el
operativo Ojeda disponía que el SAC Fraticelli estuviera en la cima de la Cadena de
Comando Táctica, seguido por un Agente Especial Auxiliar a Cargo [Assistant Special
Agent in Charge (ASAC)] del FBI de San Juan, el Comandante Adjunto del HRT y el
Supervisor de Brigada del HRT.

      Al planear el operativo de arresto, el FBI tuvo en cuenta la celebración anual de
El Grito de Lares el 23 de septiembre. Los investigadores del FBI de San Juan creían
que era posible que Ojeda dejara su domicilio para participar en la celebración en la
ciudad de Lares, presentando, por lo tanto, una oportunidad para su arresto de
manera segura lejos de su domicilio.

       El 19 de septiembre, el HRT instaló un Centro de Operaciones Tácticas
[Tactical Operations Center (TOC)] en una localidad a aproximadamente 25 millas de
distancia del domicilio de Ojeda. En general, el TOC contó con el Comandante
Adjunto del HRT y otro personal del CIRG como integrantes durante todo el operativo.
Los agentes en el campo se comunicaron con el TOC por radio y teléfono celular. El
FBI de San Juan instaló un Puesto de Comando en otro piso del mismo edificio.
Además, el Puesto de Comando del FBI de San Juan contó con el SAC Fraticelli, dos
ASACs y diversos agentes del FBI de San Juan como sus integrantes.

      Como parte de su plan de vigilancia, el FBI asignó colores a los cuatro lados de
la casa de Ojeda, a fin de facilitar las comunicaciones. Mirando hacia la casa, la
parte delantera fue designada “Blanco”, la parte izquierda fue designada “Verde”, la
parte derecha fue designada “Rojo”, y la parte trasera de la casa fue designada
“Negro”.

      E.    El papel de la Policía de Puerto Rico

        La POPR estaba al tanto de que el FBI había estado intentando ubicar a Ojeda,
y había prestado cierta asistencia al FBI para dicha finalidad. Sin embargo, el FBI no
avisó de antemano a la POPR que el FBI había localizado a Ojeda en Hormigueros y
que planeaba arrestarlo en el lugar. El SAC Fraticelli declaró que no avisó al POPR
de antemano porque deseaba mantener el operativo en secreto y limitar la posibilidad
de filtración de informaciones. La POPR no recibió aviso del operativo de arresto
hasta después de que el FBI comenzó a intentar arrestar a Ojeda y el intercambio de
disparos, el cual describimos a continuación, en cuyo momento oficiales de la POPR
se dirigieron al lugar de los hechos y establecieron un perímetro externo de seguridad.



                                       7
IV.   Cronología de los hechos del operativo

      En esta sección del Resumen Ejecutivo, la OIG expone una cronología detallada
de hechos sobre la implementación del operativo de vigilancia y arresto de Ojeda.

      A.    Hechos del 22 de Septiembre

      Un equipo de francotiradores-observadores del FBI inició la vigilancia del
domicilio de los Ojeda antes de la madrugada del jueves, 22 de septiembre. Al
amanecer, los francotiradores-observadores se retiraron a una posición protegida por
vegetación, ubicada a poca distancia del domicilio.

      Más tarde ese mismo día, el Tribunal Federal de Distrito para el Distrito de
Puerto Rico emitió una orden de allanamiento para el domicilio. La orden autorizaba
al FBI a realizar el allanamiento en cualquier hora del día o de la noche, en búsqueda
de pruebas de violaciones de varias leyes penales. La orden de arresto original
emitida en 1990 por Ojeda no presentarse para su juicio por el robo al Wells Fargo,
seguía pendiente.

      B.    Hechos Ocurridos en el Transcurso de la Noche del 22-23 de
            Septiembre

       Los francotiradores-observadores reanudaron la vigilancia del domicilio el 22
de septiembre, al oscurecer. A medida que uno de los francotiradores-observadores
se desplazaba a lo largo de la verja que rodeaba el domicilio, dos perros comenzaron
a ladrar agitadamente. Se encendieron luces en el domicilio y en una casa vecina. El
francotirador-observador vio a una mujer en el balcón y la oyó hablar con un hombre
que estaba en el patio, del lado interior de la verja, con una linterna. El hombre se
acercó al lugar en que se escondía el francotirador-observador, pero aparentemente
no lo vio. El francotirador-observador lo describió con un hombre de edad avanzada,
canoso y de apariencia física mediana, descripción que coincidía con la de Ojeda
proporcionada por el FBI de San Juan. El francotirador-observador declaró que no
podía ver claramente el rostro del hombre, pero que, basado en la descripción
proporcionada por el FBI de San Juan y otras informaciones, concluyó que el hombre
era Ojeda. Esta información fue transmitida al TOC a las 11:43 p.m. del 22 de
septiembre.

       El SAC Fraticelli y el Comandante Adjunto del HRT consideraron si ordenaban
un operativo inmediato para arrestar a Ojeda la mañana del 23 de septiembre. Al
final, concluyeron que la información disponible acerca de la casa era inadecuada
para asegurar una entrada a la fuerza por la puerta delantera, sin matar o herir a los
ocupantes.

     El FBI esperaba que Ojeda dejara su domicilio en automóvil más tarde esa
mañana, para participar en la celebración de El Grito de Lares, y que la Fuerza de
Reacción Rápida pudiera capturarlo en dicho momento. Fraticelli y el Comandante


                                       8
Adjunto del HRT duplicaron el tamaño del equipo de Fuerza de Reacción Rápida de
turno entre las 6:00 a.m. y aproximadamente las 10:00 a.m. del 23 de septiembre,
utilizando todos los agentes disponibles del HRT junto con agentes del Equipo SWAT
del FBI de San Juan. Además, se designó a numerosos agentes del FBI de San Juan
para mantener una cubierta de vigilancia en todos los puntos potenciales de salida
de vehículos próximos al domicilio. Sin embargo, el FBI no volvió a ver a Ojeda esa
mañana.

      C.    Plan para un Operativo de Arresto a Realizarse antes del Amanecer
            del 24 de Septiembre

      Basado en la información sobre el domicilio proporcionada por los
francotiradores-observadores y consejos del Comandante Adjunto del HRT, Fraticelli
decidió realizar un asalto deliberado al domicilio, con la finalidad de arrestar a Ojeda
en horas previas al amanecer del 24 de septiembre, cuando se preveía que Ojeda
estaría durmiendo. Aproximadamente a las 10:00 a.m. del 23 de septiembre, todos
los agentes del HRT pertenecientes a la Fuerza de Reacción Rápida regresaron a su
base para descansar y prepararse para el asalto que ocurriría la mañana siguiente.
Los agentes del Equipo SWAT del FBI de San Juan asumieron responsabilidades de
la Fuerza de Reacción Rápida.

      El HRT y agentes de la Unidad de Operativos y Adiestramiento prepararon un
plan para el asalto. El plan establecía que los francotiradores-observadores se
acercarían a la casa tarde el día 23 de septiembre, para confirmar la presencia de
Ojeda. En horas tempranas del 24 de septiembre, se enviarían las unidades de
asalto en un vehículo a una ubicación próxima al domicilio, y dichas unidades
avanzarían en dirección a la casa, subrepticiamente y a pie. Las unidades de asalto
se aproximarían al lado Blanco de la casa, seguirían a través del patio delantero, y
avanzarían hasta subir al balcón. Un grupo entraría al domicilio por la puerta
próxima a la esquina Roja/Blanca, y otro grupo entraría a la casa por una ventana
grande ubicada en el lado Verde. Debido a que el FBI contaba con una orden de
allanamiento sin necesidad de aviso previo, el HRT no tenía planes de anunciarse
antes de entrar. Una vez adentro, los agentes conducirían una maniobra rápida de
habitación en habitación, denominada “clear” en inglés, hasta capturar a Ojeda y
asegurar el domicilio.

      D.    El Descubrimiento de los Francotiradores-observadores

      Aproximadamente a las 2:30 p.m. del 23 de septiembre, los francotiradores-
observadores se encontraban en su posición encubierta diurna, en un bosque fuera
del área de la casa. Un francotirador-observador vio que un vehículo se detenía cerca
del comienzo de un sendero que llevaba a la posición en la que se encontraban.
Varios minutos más tarde, llegó un segundo vehículo. El francotirador-observador
oyó a personas hablando, pero no pudo comprender lo que decían ya que no habla
español. Otros francotiradores-observadores posicionados en un punto más alejado
del camino también dijeron a la OIG que oyeron vehículos y voces, pero que no


                                        9
lograron entender lo que se decía. El primer francotirador-observador se colocó en
posición de observar lo que hacían las personas que hablaban, y vio a una persona
señalar el terreno y hacia el comienzo del sendero.

      A los francotiradores-observadores les preocupaba que la persona que
gesticulaba hacia el comienzo del sendero se hubiera dado cuenta de que los
francotiradores-observadores habían utilizado el mismo y detectado su presencia. La
inquietud de los francotiradores-observadores se vio acentuada por el hecho de que el
incidente de los ladridos de perro había ocurrido la noche anterior, y por la creencia
de que la población local incluía simpatizantes de los Macheteros. Los
francotiradores-observadores informaron por radio al TOC de estos hechos y
recomendaron al TOC que la Fuerza de Reacción Rápida “llegara lo antes posible y
atacara la casa”. Varios de los francotiradores-observadores dijeron a la OIG que su
principal inquietud era que Ojeda recibiera aviso de su presencia y escapara,
regresando a la clandestinidad.

       Fraticelli y el Comandante Adjunto del HRT discutieron un procedimiento en
respuesta al descubrimiento informado de los francotiradores-observadores. Las
versiones de las deliberaciones variaron un poco, según el participante que
proporcionó la versión. Sin embargo, es indiscutible que, basado en la
recomendación del Comandante Adjunto del HRT, Fraticelli decidió proseguir
inmediatamente con el plan de arresto creado por el HRT para horas previas al
amanecer del 24 de septiembre. La modificación principal del plan fue transportar al
equipo de arresto en helicóptero a una pequeña plantación de bananas delante de la
casa y hacer que el equipo bajara rápidamente al suelo por una soga. Fraticelli dijo a
la OIG que le preocupaba que el FBI pudiera perder la ventaja de la sorpresa en este
tipo de asalto diurno por helicóptero, pero que, después de haber consultado al
Comandante Adjunto del HRT, se convenció de que una asalto inmediato a la casa
era la mejor opción.

      E.    Transporte al Objetivo

      Fraticelli tomó la decisión final de efectuar el asalto urgente a la luz del día
aproximadamente a las 3:45 o 4:00 p.m. del 23 de septiembre. Diez miembros de
tropa de asalto abordaron dos helicópteros. Los agentes estaban equipados con
cascos, chalecos a prueba de balas estándares con identificadores del “FBI”, y armas
largas del tipo carabina M4 de calibre .223 distribuidas por el HRT.

       Las unidades de SWAT del FBI de San Juan se encontraban, en dicho
momento, posicionadas en vehículos de la Fuerza de Reacción Rápida a pocos
minutos de la casa. El TOC instruyó a dos de los agentes que se unieran a las tropas
de asalto del HRT cuando cayeran en la plantación de bananas, para ayudarles con
el asalto. Se designó al resto de la Fuerza de Reacción Rápida la función de manejar
cualquier amenaza que viniera de cualquier persona en, o cerca de, una casa vecina,
incluyendo aquellas a las que habían visto u oído cerca de la ubicación de los
francotiradores-observadores. Se llamaron a numerosos otros agentes del FBI de San


                                       10
Juan, incluyendo dos negociadores y un ASAC que también era negociador, para
prestar ayuda en el lugar de los hechos. Los francotiradores-observadores se
desplazaron a diversos puntos alrededor de la casa, donde esperaron a los
helicópteros.

       Los helicópteros del HRT salieron hacia el lugar de los hechos
aproximadamente a las 4:00 p.m. A medida que los helicópteros se acercaban a las
coordenadas GPS que los pilotos habían recibido para el domicilio de Ojeda, pasaron
por un área abierta que terminaba a aproximadamente 1/10 de milla al sur de las
coordenadas del objetivo. Los pilotos no podían ver al objetivo. Un piloto pidió
asistencia por radio a los francotiradores-observadores, pero no escuchó nada. El
piloto principal no deseaba volar sobre el domicilio; por lo tanto, poco después de
haber pasado por el borde de un área abierta, giró en el sentido de las manecillas del
reloj, dirigiéndose nuevamente al área. El segundo helicóptero realizó un giro similar.
Los miembros de la tropa de asalto bajaron por soga al área abierta, la cual se
encontraba en una pendiente empinada.

      Una vez en el suelo, los 10 miembros de la tropa de asalto del HRT se dieron
cuenta de que no estaban en la zona de aterrizaje de la plantación de bananas
planeada. Se desplazaron rápidamente hacia una a empinada ladera hasta un
camino, donde se encontraron con un agente del FBI de San Juan, el cual se
encontraba en un vehículo para todo terreno en un punto de vigilancia de vehículos.
Los miembros de la tropa de asalto entraron al vehículo para todo terreno o se
subieron a sus estribos y parachoques trasero, y el agente los transportó
rápidamente al domicilio de Ojeda.

      F.    El Aasalto al Domicilio de Ojeda

       A las 4:28 p.m., el vehículo para todo terreno que llevaba a los diez miembros
de la tropa de asalto del HRT se acercó al domicilio. Al acercarse el vehículo para
todo terreno, dos francotiradores-observadores se acercaron a la casa, y fueron
detectados por perros que se encontraban del lado interior de la verja y que
comenzaron a ladrar fuertemente. Otro francotirador-observador se acercó para abrir
el portón cerrado de la entrada de automóviles al domicilio, pero el vehículo arremetió
contra el portón y se dirigió a la casa sin detenerse. El vehículo para todo terreno se
detuvo en el patio delantero de la casa, cerca de una verja de cemento.

       Un espacio abierto en la verja llevaba a escalones de bloques de hormigón que
subían por un lomo corto, pero empinado, a lo largo del lado Blanco (delantero) de la
casa. La puerta delantera estaba en la parte superior de la escalera, y había otra
entrada cubierta por un portón de madera cerca de la esquina Roja/Blanca de la
casa. Entre la puerta delantera y el portón de entrada, había una ventana de cocina
con listones de vidrio.

       La Ilustración A muestra la parte delantera de la casa en forma similar a cómo
la vieron los agentes al acercarse, con muchos detalles de la casa escondidos por la


                                       11
                      ILUSTRACIÓN A
Vista frontal del la residencia (antes de remover el follaje)




                                                                12
                                    ILUSTRACIÓN B
                  Detalles del frente (lado Blanco) de la residencia
                                  (follaje removido)




                    Ventana de la
                    cocina              Portón de entrada
Puerta de
entrada                                                                        Muro de contención

                                                             Rincón




                                                                                                         13
                                                                                              Glorieta




                                                                                    Cobacha




                                             Lomo
            Escalones


                                                            Verja de cemento
                      ILUSTRACIÓN C
     Diagrama tridimensional del interior de la residencia




                                                      Puerta de entrada
           Techo del balcón




                                       Ventana de la cocina




                                                                                                 14
                                                  Refrigerador




                   Portón de entrada
                                                        Puerta de la cocina


Glorieta

                                                                              Pasillo estrecho




                     Rincón
vegetación. La Ilustración B es una fotografía tomada después de haberse retirado el
follaje, con varios detalles importantes de la casa rotulados. La Ilustración C es una
ilustración tridimensional del interior de la casa, con detalles importantes rotulados.

       Cuando el vehículo para todo terreno se acercaba al domicilio, un
francotirador-observador que ya estaba posicionado cerca de la casa arrojó una
granada “flash-bang” no letal hacia la esquina Verde/Negra de la casa, como táctica
de distracción. Varios miembros de la tropa de asalto del HRT dijeron a la OIG que
pensaban haber oído fuego de armas semi-automáticas pequeñas provenientes de la
casa, inclusive antes de que se detuviera el vehículo para todo terreno. Otros
miembros de la tropa de asalto nos dijeron que percibieron disparos de armas
pequeñas que provenían de la ventana de la cocina, al bajarse del vehículo para todo
terreno y acercarse al frente de la casa 2 . Los agentes se desplazaron a través del
espacio abierto en la verja de cemento, subiendo los escalones de bloques de
hormigón. Un perro, asustado por el “flash-bang” corrió hacia los escalones y un
agente le disparó para evitar un ataque.

      Varios de los agentes llegaron al balcón, y dos agentes se desplazaron a un
portón de entrada hacia dentro de la casa, cerca de la esquina Roja/Blanca. (Ver
rótulo “portón de entrada” en la Ilustración B). Los demás miembros de la tropa de
ataque asumieron varias posiciones sobre los escalones y el lomo a cada lado de los
escalones, pero no prosiguieron hacia delante debido a los disparos que provenían de
la casa.

      Cuando uno de los agentes se preparaba para abrir el portón de madera
cerrado delante de la entrada cerca de la esquina Roja/Blanca, vio que alguien
apuntaba una pistola desde una puerta del lado interior izquierdo del pasillo. (Ver
rótulo “puerta de cocina” en la Ilustración C). El agente dijo que escuchó varios
disparos y sintió impactos en su chaleco antibalas. Buscó refugio en el balcón,
debajo de la ventana de la cocina, y pronto se dio cuenta de que estaba herido en el
abdomen. Otro agente cerca del portón de entrada también vio cómo un revolver
disparaba desde la puerta de la cocina, detrás del portón. El agente devolvió los
disparos de arma semi-automática hacia el pasillo con su carabina M4, disparando
un peine completo de aproximadamente 28 tiros.

      Mientras el agente herido buscaba refugio debajo de la ventana de la cocina,
hubo disparos provenientes del lado interior de la ventana de la cocina. Un disparo
le pegó al casco del agente herido desde atrás, pero no lo penetró. Otro agente recibió
dos disparos en el chaleco antibalas, a medida que se desplazaba por el balcón en un
intento de asistir al agente herido, pero el otro agente no fue herido. Varios agentes
del HRT dijeron a la OIG que vieron o escucharon una ráfaga de disparos de arma

       2  De acuerdo con varias versiones de los medios, la esposa de Ojeda, Rosado, alegó que
los agentes del FBI dispararon primero. Sin embargo, Rosado se negó dar una entrevista para
esta investigación. Según explicamos en este informe, concluimos, basados en las pruebas y el
testimonio, que Ojeda disparó primero contra los agentes.


                                             15
automática proveniente del lado interior de la ventana de la cocina. En cierto punto
durante el tiroteo, un agente ubicado en el lomo debajo del balcón recibió un disparo
en el paquete de baterías de su casco, pero resulto ileso.

      Ocho agentes del HRT distintos informaron que devolvieron tiros hacia la
ventana de la cocina desde diversas posiciones en el balcón delantero o en el lomo
debajo del mismo. Colectivamente, los agentes estimaron que dispararon
aproximadamente 80 tiros hacia la ventana de la cocina. Varios agentes dijeron a la
OIG que, cerca del final del tiroteo, percibieron que había habido varios disparos
desde el interior de la casa, a través de la puerta delantera, los cuales perforaron la
puerta e hicieron añicos la madera. 3

      Muchos de los agentes informaron que, durante el tiroteo, percibieron que por
lo menos dos armas distintas estaban disparando desde el interior de la casa,
posiblemente por dos sujetos distintos. Varios factores fueron citados como
fundamento para esta creencia. 1) varios agentes relataron que oyeron tanto
disparos de armas auto como semi-auto provenientes del interior del domicilio, por lo
cual dedujeron que eran dos armas distintas las que disparaban; 2) agentes
informaron que, al comenzar el tiroteo, hubo disparos tanto desde la ventana de la
cocina como a través de la puerta de la cocina y hacia la entrada con portón, por lo
cual algunos agentes dedujeron que podría haber dos sujetos distintos; y 3) según se
observó anteriormente, varios agentes percibieron la realización de disparos de arma
semi-auto provenientes de la puerta delantera del domicilio simultáneamente, o casi
simultáneamente, con las ráfagas de disparos de arma auto provenientes de la
ventana de la cocina.

      El tiroteo concluyó a las 4:30 p.m., alrededor de dos minutos después de haber
comenzado. Resultó herido un agente del FBI. Ojeda resultó ileso y el FBI no había
entrado a la casa o realizado el arresto.

       G.     Hechos que Siguieron al Tiroteo

      Al cesar los disparos, el agente herido fue evacuado del balcón y los demás
agentes se retiraron del mismo y del lomo y se dirigieron a posiciones que ofrecían
mejor refugio. Se transportó al agente herido a un hospital y luego se le transportó
por vía aérea a San Juan, donde se le sometió a cirugía urgente.

      Aproximadamente a las 4:48 p.m., unos pocos minutos después de que se
evacuara al agente del lugar de los hechos, alguien dentro del domicilio gritó en
español, “alguien está saliendo”. La puerta delantera de la casa se abrió y la esposa
de Ojeda, Elma Beatriz Rosado Barbosa (Rosado) surgió con las manos vacías y

       3 Como se explica a continuación el Instituto de Ciencias Forenses del Estado Libre
Asociado de Puerto Rico determinó que dichas perforaciones fueron efectuadas por disparos
provenientes del exterior disparados en dirección al interior del domicilio. La OIG no logró
determinar qué agente realizó estos disparos.


                                              16
extendidas hacia delante. Un agente la colocó boca abajo sobre el suelo y la esposó.
Rosado se negó a hablar con los agentes del FBI de San Juan, quienes intentaron
interrogarla sobre las condiciones dentro de la casa, incluyendo cuántas personas y
armas había en el domicilio, si había explosivos, y si había heridos. Se le transportó
al Centro de Detención Metropolitana de Guaynabo, y se puso en libertad al día
siguiente sin cargos.

      Después del intento frustrado de hablar con Rosado, un agente del SWAT del
FBI de San Juan comenzó a hablar con Ojeda en español. Desde detrás de la verja
de cemento debajo de la casa, el agente le gritó a Ojeda que saliera de la casa con las
manos levantadas. Ojeda preguntó quiénes eran todos, a lo cual el agente respondió,
“el FBI”. Ojeda respondió que los agentes eran delincuentes, imperialistas,
colonialistas y la mafia. El agente repitió que era el FBI y le preguntó a Ojeda si
estaba herido. Ojeda dijo que deseaba hablar con la prensa. El agente le dijo a
Ojeda que la prensa no iría al lugar. Ojeda se negó a decirle al agente si había
alguien más en la casa, y dijo que sólo hablaría con un periodista en particular,
Jesús Dávila. 4 El agente le dijo que Dávila no vendría y le preguntó nuevamente a
Ojeda si estaba herido. Ojeda respondió, “Estoy aquí”.

      Ojeda siguió negándose a entregarse y comenzó a hablar en consignas
revolucionarias, las cuales, según el agente de SWAT de San Juan, parecían un
discurso ensayado. El agente siguió intentando comunicarse con Ojeda, pero Ojeda
eventualmente dijo algo similar a, “sabes lo que quiero; cállate”.

      Un negociador del FBI de San Juan llegó al lugar de los hechos e intentó iniciar
un diálogo con Ojeda, pero Ojeda repitió su exigencia sobre la presencia de Dávila
varias veces. El negociador contactó al SAC Fraticelli por teléfono celular para
informar sobre la conversación. Fraticelli se negó a acceder al pedido de llevar a
Dávila, y le dijo al negociador que no se llevaría nadie al lugar de los hechos porque
era demasiado peligroso.

       El negociador no informó a Ojeda de la decisión de Fraticelli, pero siguió
llamando a Ojeda. En cierto momento, Ojeda respondió, “No voy a negociar con
ninguno de ustedes hasta que traigan al periodista Jesús Dávila. Entonces
hablaremos de mi entrega”. No está claro si el uso de la palabra “entrega” por Ojeda
llegó a los oídos de Fraticelli, quien dijo a la OIG que no recordaba haber escuchado a
Ojeda discutir su entrega. Sin embargo, la declaración de Ojeda fue transmitida a
agentes del HRT en el TOC.

      El negociador del FBI de San Juan siguió llamando a Ojeda, pero Ojeda ya no
respondió más. Basado en los registros del TOC y las declaraciones del agente, las



      4 Dávila es un periodista de El Diario La Prensa, un periódico en español que cubre

hechos ocurridos en Puerto Rico.



                                             17
comunicaciones del negociador con Ojeda tuvieron lugar aproximadamente entre las
5:30 y las 6:00 p.m.

       Los informes del incidente en el domicilio de Ojeda se transmitieron por radio
local poco después del tiroteo entre Ojeda y el HRT. Pronto se reunieron ciudadanos,
incluyendo miembros de la prensa, en el camino cerca del lugar de los hechos.
Agentes del Buró de Alcohol, Tabaco y Armas de Fuego de los EE.UU., así como
oficiales de la POPR, llegaron para proporcionar seguridad en el perímetro externo.

       H.     El Tiro Proveniente del Perímetro que Alcanzó a Ojeda

       Después de la evacuación del agente herido, aproximadamente a
las 4:40 p.m., el agente Brian del HRT de desplazó a una posición en la colina, a la
derecha del domicilio, detrás de un muro de contención. 5 La Ilustración D es una
fotografía tomada desde la posición aproximada de Brian. Desde esta ubicación,
Brian pudo vigilar ambos lugares de los cuales habían salido disparos anteriormente
contra el FBI: la ventana de la cocina y el portón de entrada. Brian dijo a la OIG que
podía ver el costado de un refrigerador de color claro por la mitad izquierda de la
ventana de la cocina. El refrigerador ocupaba alrededor de la mitad de su campo de
visión por la ventana. La otra mitad estaba en la oscuridad.

       El agente Brian le dijo a la OIG que, mientras se encontraba en su posición en
la colina, detrás del muro de contención, vio cómo se abría la puerta del refrigerador
y se encendía su luz. Brian dijo que vio a una persona agachada, con un revólver en
su mano izquierda y apuntando hacia fuera de la ventana. No podía ver los ojos del
individuo o detectar hacia dónde miraba. Brian declaró que el individuo sin dudas
tenía un arma apuntada en la dirección de Brian y otros agentes del FBI, pero que no
estaba seguro de si el individuo estaba apuntando el arma a alguien en particular.
Ningún otro agente informó haber estado en posición de ver lo que Brian vio por la
ventana.

       Brian le dijo a la OIG que, en dicho momento, se dio cuenta de que el individuo
estaba armado y de que podía verlo a Brian. Brian ya sabía que otro agente había
sido herido anteriormente por un disparos proveniente del interior de la casa, y que
él mismo había sido alcanzado (pero no herido) por al menos un disparo proveniente
del interior de la casa durante el tiroteo original. Brian declaró que también sabía
que el individuo había disparado su arma anteriormente desde la ventana en la cual
se encontraba posicionado en ese momento, y que le había disparado a Brian desde
esa ventana. Brian informó que concluyó que el individuo representaba una
amenaza inminente para sí mismo y para otros agentes.

      Brian relató que sacó su arma de la posición asegurada (“safe”), la apuntó
hacia donde creía que estaba la masa central de la persona, y disparó tres tiros en

       5  “Brian” es un seudónimo. Brian era un miembro del equipo de arresto y no un
francotirador-observador.


                                            18
                       ILUSTRACIÓN D
Vista de la residencia desde posición aproximada del tirador




                        Puerta de
                        entrada




                                                                     19
 Techo de la glorieta                           Portón de   Rincón
                                                entrada



                                    Ventana
                                    de la
                                    cocina
sucesión rápida en la manera de tiro simple. Brian estimó que habían pasado
alrededor de tres segundos desde el momento en que vio encenderse la luz del
refrigerador y el momento en que disparó su arma. Brian dijo a la OIG que no vio la
luz del refrigerador después de haber disparado, y que era posible que el individuo
estuviera cerrando la puerta del refrigerado cuando Brian disparó. Los disparos
ocurrieron aproximadamente a las 6:08 p.m.

       Varios agentes informaron a la OIG que, inmediatamente después de haber
oído tres disparos provenientes del perímetro, escucharon a Ojeda gritar “ay, ay, ay” y
un ruido como si alguien se cayera. Un agente relató que escuchó un gemido
después de los gritos. Ninguno de los testigos relató haber oído ningún otro sonido
proveniente de Ojeda. Varios agentes informaron a la OIG que escucharon a Brian
decir por la radio que pensaba haber alcanzado al sujeto.

       I.        La Decisión de no Entrar a la Casa el 23 de Septiembre

       Una vez se dispararon los tres tiros desde el perímetro, el FBI comenzó a
realizar preparaciones para entrar al domicilio de Ojeda. Los agentes en el lugar de
los hechos deseaban entrar al domicilio de inmediato. Sin embargo, el SAC Fraticelli
y el Comandante Adjunto del HRT procedieron con cautela debido a la inquietud de
que Ojeda pudiera no estar incapacitado y la posibilidad de que hubiera un segundo
tirador dentro de la casa.

       A las 6:34 p.m., el FBI de San Juan contactó a la compañía de energía eléctrica
para que interrumpieran el suministro de electricidad a la casa, a fin de proporcionar
una ventaja táctica a los agentes del HRT, quienes estaban equipados con aparatos
de visión nocturna. 6 A las 6:49 p.m., un agente del HRT detonó una carga explosiva
que se había colocado en el portón de madera cerrado ubicado en la entrada cerca de
la esquina Roja/Blanca del domicilio. Los agentes del HRT también detonaron “flash-
bangs” en otros lugares como táctica de distracción. Un agente abrió el portón de
madera. No hubo reacción por parte de ninguna persona que se encontrara en el
interior de la casa. Los agentes miraron hacia el pasillo detrás del portón, pero no
vieron a nadie. No entraron a la casa durante esta “brecha limitada”.

      Los hechos en Puerto Rico los estaba monitoreando el Comandante del HRT en
Quantico, Virginia. El Comandante del HRT informó a la OIG que, poco después de
haberse enterado de la brecha limitada del portón de entrada, ordenó al Comandante
Adjunto del HRT en Puerto Rico que no entrara al domicilio esa noche. Sin embargo,
el Comandante Adjunto del HRT no recuerda haber recibido dicha orden. 7 Tanto el

       6    No se cortó el suministro de energía eléctrica a la casa hasta las 8:09 p.m.

        7 No pudimos conciliar las versiones de los hechos proporcionadas por el Comandante

del HRT y el Comandante Adjunto del HRT. Observamos que el Comandante del HRT en
Quantico no formaba parte de la cadena de mando formal en dicho punto, y no encontramos
indicios de que la orden del Comandante haya sido un factor en deliberaciones asociadas a la
decisión de entrar en Puerto Rico entre las 6:08 y las 8:05 p.m.


                                                 20
Comandante Adjunto como el SAC Fraticelli informaron a la OIG que el FBI siguió
haciendo planes para entrar al domicilio esa noche. A las 7:41 p.m., un equipo de
agentes del HRT en el lugar de los hechos ya se encontraba equipado y listo para
entrar al domicilio.

       Sin embargo, para este entonces, oficiales superiores de la División de
Contraterrorismo del FBI en Washington, D.C. se preocupaban por saber cómo se
desarrollaban los hechos en Puerto Rico. Willie Hulon, el Director Auxiliar de la
División de Contraterrorismo, ya había recibido informes telefónicos del SAC
Fraticelli con respecto a los hechos en el lugar. Hulon relató estas conversaciones a
su superior, Gary Bald, el Director Auxiliar Ejecutivo del National Security Branch.
Basado en la descripción realizada por Hulon de la conducta de Fraticelli durante
esas conversaciones telefónicas y las repetidas consultas del SAC Fraticelli con
relación al estado de su pedido de que la Sede del FBI enviara a otro SAC
familiarizado con Puerto Rico para asistir en el operativo, Bald se inquietó con
relación a que Fraticelli necesitaba ayuda para manejar la situación. Bald sintió que
su inquietud quedó confirmada cuando recibió la impresión de Hulon de que agentes
en el lugar de los hechos estaban actuando de manera incompatible con la
recomendación de Hulon de que mantuvieran el perímetro. Bald creyó que había
cierta confusión con relación a quién comandaba el lugar de los hechos y que el HRT
estaba tomando decisiones independientemente de Fraticelli. Basado en estas
inquietudes, Bald informó a Hulon poco antes de las 8:00 p.m. que una entrada al
domicilio tendría que contar con la aprobación de Hulon.

      A las 8:05 p.m., Hulon llamó a Fraticelli y le dijo que no se entraría al domicilio
sin su aprobación. Durante dicha llamada, Fraticelli y el Comandante Adjunto del
HRT recomendaron que se entrara al domicilio durante la noche para aprovechar la
oscuridad. Hulon les instruyó que presentaran un plan de entrada por escrito a la
Sede del FBI, para su consideración.

       Poco después de la llamada de las 8:05, Hulon y Bald discutieron los méritos
comparativos de entrar a la casa de noche o al día siguiente, y decidieron que se
debía postergar la entrada hasta la mañana siguiente. Por lo tanto, antes de que los
agentes en Puerto Rico hubieran completado un plan por escrito para una entrada
nocturna, Hulon le dijo a Fraticelli que la Sede del FBI había decidido contra la
entrada nocturna y que se estaba enviando un nuevo equipo del HRT de Quantico
para realizar la entrada al día siguiente. Sin embargo, en horas avanzadas de la
noche, Fraticelli llamó al adjunto de Hulon, John Lews, para realizar una última
solicitud de aprobación para la entrada nocturna. Fraticelli destacó preocupaciones
con la seguridad creadas por multitudes de simpatizantes de los Macheteros
reunidos cerca del lugar de los hechos, y la posibilidad de que Ojeda aún estuviera
vivo y requiriera atención médica. Fraticelli nos dijo que Lewis llamó
aproximadamente 15 ó 20 minutos más tarde y le dijo que Hulon había rechazado la
propuesta.




                                        21
      A las 11:33 p.m., se informó a los agentes en el lugar de los hechos que no se
entraría al domicilio esa noche. Muchos de los agentes del HRT en el lugar de los
hechos informaron a la OIG que estuvieron en vehemente desacuerdo con dicha
decisión.

      J.    Notificación al Departamento de Justicia de Puerto Rico

       En el curso del operativo, el FBI proporcionó actualizaciones periódicas a la
Fiscalía Federal [United States Attorney’s Office (USAO)] para Puerto Rico.
Aproximadamente entre las 6:45 p.m. y las 7:15 p.m., el Jefe Penal de la Fiscalía
Federal (USAO) contactó a Roberto J. Sánchez Ramos, el Secretario de Justicia para
el Estado Libre Asociado de Puerto Rico, y a Pedro G. Goyco Amador, el Fiscal en Jefe
del Estado Libre Asociado, para informarles acerca del tiroteo y solicitar el envío de
fiscales locales al lugar de los hechos. Sánchez dijo a la OIG que esta fue la primera
notificación que el Departamento de Justicia de Puerto Rico recibía del FBI con
relación a un operativo para aprehender a Ojeda. Tanto Sánchez como Goyco dijeron
a la OIG que dedujeron a partir de la solicitud de la USAO que Ojeda estaba
gravemente herido o muerto. Al llegar los fiscales locales al lugar de los hechos,
aproximadamente a las 8:36 p.m., el FBI no les permitió acercarse a la casa y, en
cierto punto, el FBI les informó que no se entraría a la casa esa noche.

      K.    Entrada a la Casa el 24 de Septiembre

       El equipo de relevo de agentes del HRT de Quantico llegó a Puerto Rico
aproximadamente a las 5:00 de la mañana siguiente, el 24 de septiembre. Agentes
en el TOC redactaron un plan para una entrada diurna y lo enviaron a la Sede del
FBI por fax. Hulon y Lewis analizaron el borrador y recomendaron cambios menores
por teléfono. A las 9:29 a.m., Hulon llamó a Fraticelli y le dijo que se había aprobado
el plan revisado.

       La entrada diurna no se realizó hasta tres horas después de aprobarse el plan.
El plan para la entrada incluía la inserción de un perro de la POPR en el domicilio
para determinar la ubicación o actividad de los ocupantes. El perro de la POPR no
llegó hasta alrededor de las 11:54 a.m., y se quedó por poco tiempo porque el
manejador recibió instrucciones del Superintendente de la POPR Pedro A. Toledo
Dávila de no participar en el operativo. Toledo dijo a la OIG que le negó permiso al
FBI para utilizar el perro de la POPR porque entendió que el FBI temía que pudiera
haber explosivos en el domicilio y Toledo no deseaba colocar en peligro al manejador
del perro de la POPR. Hulon aprobó la solicitud de Fraticelli de realizar la entrada
sin un perro a las 12:22 p.m.

      El equipo de entrada del HRT subió por el camino adyacente al lado Rojo de la
casa. Aproximadamente a las 12:34 p.m., se arrojaron tres granadas “flash-bang”
como táctica de distracción, a medida que el equipo trepaba por arriba del muro de
contención, entraba al domicilio a través del portón de madera abierto, y luego
avanzaba por la puerta de la cocina hacia dentro de la cocina. Los agentes


                                       22
descubrieron el cuerpo de Ojeda cerca de la puerta delantera, boca abajo con una
pistola de alta potencia Browning de 9 mm, cargada y amartillada, en un punto
cercano en el piso. Sangre del cuerpo había fluido por debajo de la puerta, formando
un único hilo angosto por debajo del frente del umbral y creando una mancha de
sangre sobre el piso del balcón exterior.

      Ojeda llevaba una gorra de camuflaje, un chaleco antibalas sin mangas, un
overol de camuflaje y botas de combate negras. Un técnico médico de emergencia del
FBI constató que el cuerpo no tenía pulso y observó que el rigor mortis ya estaba
presente. Después de haber realizado una búsqueda de ocupantes adicionales en la
casa, el equipo de entrada informó que, a las 12:37 p.m., la casa se encontraba
asegurada y parecía haber un único sujeto muerto.

      El equipo de entrada no movió de inmediato el cuerpo de Ojeda, por temor de
que hubiera una granada debajo del torso de Ojeda o en su mano izquierda, la cual
se encontraba debajo de su cuerpo y no estaba visible. Se enganchó un cabestrante
al chaleco antibalas de Ojeda y se tiró del cuerpo desde afuera y por arriba del
umbral, hasta ubicarlo sobre el balcón. La mano de Ojeda cayó libremente y no se
encontró ningún dispositivo explosivo. El proceso de tirar del cuerpo hacia fuera por
la puerta hizo que una cantidad importante de sangre acumulada se barriera por
sobre el umbral, aumentando la cantidad de sangre visible en el frente del mismo.

       Los técnicos en bombas del FBI dirigieron su atención a dos artículos
identificados en la casa como posibles amenazas explosivas. Una caja con alambres
que se asomaban se retiró y se abrió utilizando el cabestrante. La misma contenía
una trompeta. 8 Se inspeccionó visualmente una gran mochila que se encontró en la
habitación, sin que se observaran peligros de explosión.

       Aproximadamente a las 2:44 p.m., el examinador médico de San Juan
pronunció muerto a Ojeda. Se entregó la escena a los investigadores del Instituto de
Ciencias Forenses del Estado Libre Asociado de Puerto Rico para su procesamiento.
Dichos investigadores retiraron el cuerpo de Ojeda del domicilio aproximadamente a
las 5:00 p.m. Se concluyó el allanamiento del domicilio a las 9:30 p.m. De acuerdo
con el Control de Recuperación de Pruebas, el FBI confiscó más de 100 artículos en
el domicilio, incluyendo una cantidad importante de equipos de informática, libros y
otros documentos.




        8 Por lo menos un periódico de Puerto Rico relató un rumor de que el FBI había tomado

la trompeta del lugar de los hechos a modo de “trofeo”. Esta información no es precisa. Los
investigadores del Instituto de Ciencias Forenses del Estado Libre Asociado de Puerto Rico
tomaron la trompeta bajo custodia al procesar el lugar de los hechos. El Dr. Rechani dijo a la
OIG que el artículo será devuelto a la familia Ojeda cuando ya no sea necesario para la
investigación por el Estado Libre Asociado del incidente de este tiroteo.


                                             23
V.    Conclusiones del Instituto de Ciencias Forenses del Estado Libre Asociado
      de Puerto Rico

       En esta sección del Resumen Ejecutivo, la OIG resume las conclusiones del
Instituto de Ciencias Forenses del Estado Libre Asociado de Puerto Rico con relación
a esta investigación. El Instituto asumió el papel principal en el procesamiento del
lugar de los hechos y la realización de análisis forenses pertinentes al asunto Ojeda.
Las conclusiones del Instituto se basaron completamente en las pruebas físicas; el
Instituto desconocía el contenido de las declaraciones brindadas por los agentes a la
OIG.

      Uno de las razones por las cuales el FBI defirió al Instituto el análisis forense
fue evitar alegaciones de que el FBI había manipulado la escena. El Dr. Pio R.
Rechani López, Director Ejecutivo del Instituto, le dijo a la OIG que el Instituto no
había encontrado pruebas de que el FBI hubiera manipulado o alterado la escena.

      A.    Hallazgos en la Escena

       El informe de Hallazgos en la Escena del Instituto indicó que se encontró una
pistola Browning de 9 mm sobre el piso del domicilio, cerca del cuerpo de Ojeda. La
pistola estaba totalmente cargada, con 13 balas sin disparar dentro de su peine y
una en la recámara, indicando que había sido recargada. Se encontró el martillo de
la misma amartillado. La pistola había sido modificada para tirar tanto en modo
automático como semiautomático. También se encontró en el lugar de los hechos
107 casquillos de bala disparados de balas de calibre .223 y 19 casquillos disparados
de balas de 9 mm.

      B.    Autopsia

      De acuerdo con el Informe de autopsia, Ojeda murió de una única herida de
bala que entró a su cuerpo justo debajo de su clavícula derecha, perforó el pulmón
derecho, y salió por el centro de su espalda, del lado derecho. No sufrió otras heridas.
La bala fue recuperada dentro del chaleco antibalas que Ojeda llevaba puesto.

       El informe de autopsia no especificó la hora de la muerte. El Dr. Francisco
Cortés, el Patólogo Forense que realizó la autopsia, informó a la OIG que, basado en
el tamaño de la herida y presunciones razonables sobre el ritmo cardiaco y presión
sanguínea de Ojeda, estimaba que Ojeda había muerto desangrado aproximadamente
15 a 30 minutos después de haber recibido el impacto de bala. Opinó que Ojeda
podría haber sobrevivido a la herida si hubiera recibido de inmediato atención de
primeros auxilios y cuidados quirúrgicos. El Dr. Cortés observó que él no trata a
pacientes con vida; por lo tanto, sus opiniones sobre la posibilidad de que Ojeda
sobreviviera sus heridas y su estimado de la cantidad de tiempo que Ojeda puede
haber sobrevivido se basan en su experiencia como patólogo y en su revisión de
bibliografía médica.



                                        24
       La OIG también consultó al Instituto de Patología de las Fuerzas Armadas del
Departamento de Defensa de los Estados Unidos, Oficina del Examinador Médico de
las Fuerzas Armadas [Office of the Armed Forces Medical Examiner (OAFME)] sobre
cuánto tiempo vivió Ojeda después de haber recibido la herida de bala. Basado en su
revisión de los registros de autopsia y otros materiales pertinentes, la OAFME
concluyó que la herida de bala no fue inmediatamente fatal, pero que no era posible
determinar exactamente cuánto hubiera sobrevivido Ojeda. Cuando la OIG preguntó
si Ojeda podría haber sobrevivido más de dos horas, el Examinador Médico respondió
que era improbable.

      C.    Exámenes de Balas y Casquillos de Balas

       El Instituto realizó comparaciones microscópicas de balas y fragmentos de
balas recuperados de la escena con balas disparadas por la pistola de Ojeda y por las
carabinas disparadas por los agentes del HRT durante el operativo. El Instituto
determino que la bala calibre .223 recuperada de dentro del chaleco de Ojeda fue
disparada por una carabina M4 que el FBI había proporcionado para prueba
comparativa. De acuerdo con el HRT, esta fue la carabina utilizada por Brian. El
Instituto determinó que las balas de 9 mm recuperadas del abdomen y casco del
agente herido fueron disparadas por la pistola Browning de Ojeda.

       Basado en marcas distintivas dejadas en los casquillos por los percutores de
las diversas armas, el Instituto no logró combinar los 107 casquillos de bala
encontrados en la escena con armas específicas del HRT. El Instituto proporcionó
esbozos que indicaban dónde se encontraron los casquillos de .223 en la escena.
Con una excepción, la OIG no encontró ninguna discrepancia significativa entre esta
prueba forense y las declaraciones hechas a la OIG por los agentes con relación a los
tiros que dispararon. El Instituto determinó que un arma que la OIG determinó que
había sido asignada a un agente del HRT que inicialmente no declaró haber
disparado durante el tiroteo había disparado dos tiros. Ninguno de estos tiros
alcanzó a Ojeda. Cuando preguntamos sobre estos tiros, el agente se negó a
proporcionar una declaración voluntaria de seguimiento a la OIG.

      El Instituto determinó que el total de 19 casquillos de bala encontrados dentro
del domicilio provinieron de balas de 9 mm disparadas de la pistola de Ojeda.

      D.    Análisis de Trayectoria

       El Instituto estimó las trayectorias de balas para muchas de las
111 perforaciones de balas y 76 impactos de bala que se encontraron en el domicilio.
La OIG encontró que la ubicación de las perforaciones e impactos, según reflejan
esbozos del Instituto y fotografías de la escena del delito, junto con el análisis de
trayectoria del Instituto, eran compatibles con las declaraciones de los agentes del
FBI en muchos puntos importantes. Más significativamente, el análisis del Instituto
identificó las trayectorias de los tres tiros disparados del perímetro por el agente
Brian, incluyendo el tiro que alcanzó a Ojeda. Las pruebas forenses también


                                      25
confirmaron que Ojeda disparó tiros desde dos lugares: desde el pasillo estrecho
hacia el portón de entrada, y desde la ventana de la cocina. La prueba de trayectoria
también era compatible con las descripciones efectuadas por los agentes de sus
ubicaciones durante el tiroteo, incluyendo las declaraciones de tres agentes que
informaron haber disparado hacia dentro de la ventana de la cocina desde posiciones
en el balcón y otros agentes que informaron haber disparado desde posiciones sobre
el lomo abajo.

       La OIG encontró sólo un conjunto de estimados de trayectoria realizado por el
Instituto Forense que discrepaba con las declaraciones proporcionadas por los
agentes del FBI. Varios agentes informaron haber percibido tiros provenientes del
interior de la casa y a través de la puerta delantera. Ningún agente informó haber
disparado hacia la puerta. Sin embargo, el Instituto encontró que había tres
perforaciones en la puerta delantera provenientes de tiros disparados desde una
ubicación desde afuera de la puerta y desde abajo (bajando los escalones de cemento),
y no desde el interior de la casa. El Instituto también encontró tres impactos en el
cielorraso de la sala de estar que correspondían a las perforaciones en la puerta y
confirmaban la trayectoria hacia arriba. Pedimos entrevistas voluntarias de
seguimientos a varios agentes, quienes creemos que pueden haber realizado esos
disparos, pero los mismos se negaron a satisfacer nuestro pedido. En consecuencia,
no hemos logrado determinar qué agente o agentes disparó/dispararon estos tres
tiros a través de la puerta delantera.

      E.    Reconstrucción de Disparos

       El Instituto concluyó que la bala que alcanzó a Ojeda era uno de los tres tiros
provenientes de una ubicación cerca del muro de contención del lado derecho de la
casa, a una distancia de aproximadamente 19 pies. El Instituto encontró que las tres
balas atravesaron la ventana de la cocina, penetraron el lado izquierdo del
refrigerador, y salieron por el frente del refrigerador. Dos de los tiros presentaban
impactos o penetraciones finales dentro del domicilio, mientras que el tercero (el
disparo que alcanzó a Ojeda) no presentó impactos o penetraciones finales. La
tercera trayectoria salió por el refrigerador a una altura de 49 pulgadas, lo cual,
según el Instituto, coincidía con la posición de la herida de bala en el cuerpo de
Ojeda, presuponiendo una posición agachada.

      F.    Patrones de sangre

      El Instituto encontró que el chaleco antibalas de Ojeda evitó que se salpicara
sangre de inmediato en el lugar donde Ojeda fue herido. El Instituto concluyó que
Ojeda dio uno o dos pasos hacia la puerta delantera antes de caer al piso, con su
cabeza cerca de la puerta. Se formaron dos charcos grandes de sangre, uno cerca de
la cabeza de Ojeda, proveniente de la herida cerca de su hombro, y otro cerca de la
parte inferior de su chaleco más alejada de la puerta.




                                      26
       El informe de patrón de sangre concluyó que la puerta delantera estaba
cerrada en el momento en que fluía la sangre, pero que la pendiente del piso y el
patrón de sangre eran compatibles con movimiento lento hacia la puerta, formando
una corriente de sangre sobre el umbral. Personal del Instituto informó a la OIG que
la mancha de sangre sobre el umbral había crecido mucho al girar el cuerpo de Ojeda
y tirar del mismo por la puerta delantera y hacia fuera sobre el balcón, a fin de
constatar la presencia de dispositivos explosivos. La mancha más grande y más
evidente apareció en fotografías publicadas en algunos relatos de periódicos locales
sobre la muerte de Ojeda.


VI.   Cumplimiento con la Política de Fuerza Mortal

       En esta Sección, la OIG resume su análisis de si los tiros disparados por
agentes del FBI durante el operativo Ojeda eran compatibles con la Política de Fuerza
Mortal del Departamento de Justicia. La Política de Fuerza Mortal establece que un
oficial de las fuerzas del orden público del Departamento de Justicia puede usar
fuerza mortal

      sólo cuando resulte necesario, o sea, cuando el oficial tenga motivos
      suficientes para creer que el objeto de dicha fuerza representa un peligro
      inminente de muerte o lesión física grave al oficial u otra persona. . . . Si
      fuera factible y el hacerlo no aumentaría el peligro para el oficial u otros,
      se debe realizar una advertencia verbal para que el individuo se someta a
      la autoridad del oficial, antes de utilizar fuerza mortal.

El Manual de Directrices de Investigación y Operacionales [Manual of Investigative
and Operational Guidelines (MIOG)] del FBI establece la definición de “peligro
inminente”:

      “Inminente” no significa “inmediato” o “instantáneo”, sino que existe una
      acción pendiente. Por lo tanto, un sujeto puede representar un peligro
      inminente, aunque en ese preciso momento no esté apuntando un arma al
      Agente. Por ejemplo, puede existir peligro inminente si los Agentes tienen una
      causa probable para creer . . . que el sujeto posee un arma, o está intentando
      obtener acceso a un arma, bajo circunstancias que indiquen la intención de
      usarla contra los Agentes u otros . . . .

Los Guías de Instrucción para la Política de Fuerza Mortal [Instructional Outline for
the Deadly Force Policy] del FBI indican que no se debe interpretar que la Política
“exige que los Agentes asuman riesgos irrazonables para sí mismos”, y que “se debe
tener en cuenta de que, muchas veces, los Agentes se encuentran obligados a tomar
decisiones en fracciones de segundos, en circunstancias que son tensas, inciertas y
de rápida evolución”.




                                        27
       El MIOG del FBI también contiene políticas relacionadas relativas a la
“disciplina de fuego” que exige que todo disparo sea precedido de la adquisición de un
blanco hostil conocido.

       La OIG dividió su análisis del uso de fuerza mortal por los agentes durante el
operativo Ojeda en dos partes: una evaluación de la conducta de los agentes durante
el intercambio inicial intenso entre las 4:28 y las 4:30 p.m., y una evaluación de la
conducta del Agente Brian al disparar tres tiros desde el perímetro aproximadamente
a las 6:08 p.m., incluyendo el tiro que alcanzó a Ojeda.

       A.     Evaluación del Intercambio Inicial de Tiros

      Ojeda disparó 19 tiros durante el tiroteo inicial, 8 de los cuales alcanzaron a
agentes del FBI. Un agente resultó herido de gravedad en el abdomen. Los agentes
del FBI dispararon 104 tiros durante el tiroteo inicial, ninguno de los cuales alcanzó
a Ojeda.

      Basado en nuestro análisis de las pruebas, concluimos que Ojeda abrió fuego
contra los agentes del FBI cuando intentaban entrar al domicilio, antes de que
cualquier agente disparara. Basamos esta conclusión en varios factores, incluyendo
las declaraciones de numerosos agentes en el lugar de los hechos. Además, debido a
la posición elevada de las puertas y ventanas del domicilio, la vegetación pesada que
las cubría, y el hecho de que el interior de la casa estaba oscuro, los agentes no
hubieran tenido ningún blanco claro antes de que Ojeda abriera fuego. En contraste,
la posición de Ojeda le permitió una visión mucho más clara de los agentes, a medida
que se acercaban bajo la luz diurna.

       La viuda de Ojeda, Rosado, rechazó el pedido de la OIG de una entrevista, pero
alegó en declaraciones a los medios que el FBI disparó primero. Sin embargo,
creemos que Rosado puede haber interpretado que la explosión de una granada
“flash-bang” en el exterior de la casa eran disparos iniciados por el FBI. Según se
discutió anteriormente, un agente del FBI detonó una granada cerca de la esquina
Verde/Negra de la casa, como táctica de distracción, a medida que se acercaban los
agentes, antes de que se iniciara el tiroteo. 9

       Concluimos que, una vez que Ojeda comenzó a disparar claramente se
convirtió en un peligro inminente para los agentes. El dar una advertencia verbal a
Ojeda en dicho punto no era factible. Una vez que los agentes se dieron cuenta de
que se les estaba disparando, se justifica que hayan aplicado fuerza mortal para
tratar de la amenaza, sin pausar para advertir a Ojeda.


       9  No se debe interpretar esta discusión como una conclusión de que Ojeda no hubiera
abierto fuego contra el FBI si no se hubiera detonado la granada “flash-bang.” Claramente,
Ojeda se había preparado para ofrecer resistencia violenta al FBI, antes de que llegaran los
agentes.


                                             28
       Ojeda disparó contra los agentes desde dos posiciones: desde la puerta de la
cocina y hacia el portón de entrada, la cual intentaban abrir los agentes, y desde la
ventana de la cocina contra agentes sobre o debajo del balcón. Encontramos que la
gran mayoría de los 104 disparos que hiciera el FBI durante el tiroteo inicial fueron
contra estos dos blancos, y que los mismos eran compatibles con la Política de
Fuerza Mortal del Departamento de Justicia. Las Guías de Instrucción para la
Política de Fuerza Mortal establece que “cuando las circunstancias justifiquen el uso
de fuerza mortal, los Agentes deben seguir aplicándola hasta eliminar el peligro
inminente . . . .” El hecho de que los agentes dispararon más de 100 tiros sin
alcanzar a Ojeda es un reflejo de la posición de cobertura y elevación superior de
Ojeda, y no es necesariamente un reflejo de disciplina de fuego inadecuada.

      Sin embargo, basadp en las pruebas forenses, la OIG encontró que el FBI
disparó tres veces a través de la puerta delantera del domicilio, los cuales pueden
haber violado la Política de Fuerza Mortal. Ninguno de estos disparos alcanzó a
Ojeda o a su esposa. Ningún contenido de las declaraciones de testigos disponibles o
de las pruebas forenses sugiere que estos tres disparos respondían a un peligro
inminente impuesto por una persona ubicada directamente detrás de la puerta. Sin
embargo, los agentes que creen que es posible haber hechos estos disparos se
negaron a proporcionar entrevistas voluntarias de seguimiento a la OIG.

      B.    Evaluación de los Disparos Provenientes del Perímetro

       La OIG también evaluó los tres disparos que el Agente Brian hizo hacia dentro
de la ventana de la cocina, aproximadamente a las 6:08 p.m. (los “disparos del
perímetro”). Uno de estos disparos alcanzó a Ojeda y resultó en su muerte. Hemos
concluido que estos disparos no violaron la Política de Fuerza Mortal.

      Brain informó a la OIG que vio a un individuo en la ventana de la cocina,
iluminado por la luz interior del refrigerador. Según Brian, la persona estaba
agachada, con un revólver en su mano izquierda y apuntando hacia fuera de la
ventana. Brain dijo que apuntó su carabina hacia donde creía que podría
encontrarse la masa central de Ojeda, y realizó tres disparos en sucesión rápida y en
modo de tiro simple.

       Encontramos que las pruebas forenses proporcionadas por el Instituto de
Ciencias Forenses del Estado Libre Asociado de Puerto Rico eran compatibles con la
descripción de Brian de dónde se encontraba y qué vio. Se encontró la pistola de
Ojeda a su lado, sobre el piso, cargada y con el percusor amartillado, confirmando
que Ojeda estaba sosteniendo la pistola en el momento en que fue herido. Su herida
también era compatible con la posición agachada, con sus hombros generalmente
alineados hacia Brian. Si bien la visión que Brian tenía de Ojeda estaba
parcialmente obstaculizada por el refrigerador en el momento del impacto, las
pruebas forenses indican que el lado izquierdo del cuerpo de Ojeda, incluyendo su
mano izquierda (con la cual, según Brian, sostenía la pistola), puede haber sido
visible para Brian en el momento en que Brian disparó, o justo antes. Basado en la


                                      29
trayectoria de los tres disparos de perímetro, creemos que, en el momento en que se
alcanzó a Ojeda, este último puede haber estado desplazándose hacia su derecha,
detrás del refrigerador, posiblemente al darse cuenta de que se había hecho visible
debido a la luz del refrigerador.

       Para llegar a nuestra conclusión sobre el uso de fuerza mortal, tuvimos en
cuenta el hecho de que Ojeda ya había disparado varios veces a través de la ventana
de la cocina, y había demostrado la intención de matar o herir a los agentes del FBI
que intentaban arrestarlo. Ya había disparado contra tres agentes distintos. Además,
Brian y otros agentes que cubrían la casa se encontraban en posiciones expuestas.

       Las conversaciones entre Ojeda y el FBI durante el cese al fuego no mitigaron
el peligro que Ojeda representaba en el momento en que Brian disparó. Ojeda se
había negado a cumplir con las instrucciones del FBI de salir de la casa. Apareció en
la ventana de la cocina con una pistola. Aunque Brian hubiera entendido la oferta de
Ojeda de discutir su entrega si se llevaba a un periodista determinado al lugar de los
hechos, Ojeda podría haber reanudado los disparos contra los agentes del FBI en
cualquier momento.

      Por todos estos motivos, la OIG concluyó que, en el momento en que Brian
disparó, tuvo motivos suficientes para creer que Ojeda representaba un peligro
inminente de muerte o herida grave a Brian y otros agentes, y que, por lo tanto,
Brian no violó la Política de Fuerza Mortal del Departamento de Justicia. Los
consultores especialistas del OIG estuvieron de acuerdo con esta evaluación.


VII.   Evaluación de la Decisión de Realizar un Asalto Urgente a luz del día

      En esta Sección, la OIG resume su evaluación de la decisión del SAC Fraticelli,
en consulta con el Comandante Adjunto del HRT, de ordenar un asalto urgente a la
luz del día contra el domicilio de Ojeda la tarde del 23 de septiembre.

       Cuando los francotiradores-observadores informaron creer que personas no
identificadas los habían descubiertos, Fraticelli tuvo que elegir entre varias opciones
de acción, teniendo en cuenta el riesgo de que dichas personas podrían advertir a
Ojeda de la presencia de los francotiradores-observadores o ayudarlo de alguna otra
forma a evadir o resistir el arresto. Fraticelli aprobó un plan propuesto por el
Comandante Adjunto del HRT para transportar a 10 agentes del HRT al domicilio en
2 helicópteros y conducir un asalto urgente a la luz del día contra el domicilio para
arrestar a Ojeda. Concluimos que este plan era peligroso para los agentes y no era la
mejor alternativa disponible al FBI. Para llegar a esta conclusión, la OIG se basó
mayormente en las evaluaciones proporcionadas por sus peritos externos.




                                       30
      A.    Riegos Previsibles de un Asalto a la luz del día

      Encontramos que era previsible que Ojeda estuviera armado y preparado para
ofrecer resistencia violenta al ataque del FBI, el cual comenzó a las 4:28 p.m. el 23 de
septiembre. Asimismo, si Ojeda hubiera estado armado con un arma de fuego de alta
potencia o con un dispositivo explosivo, tal como una granada (lo cual hubiera sido
compatible con la experiencia anterior del FBI con los Macheteros), hubiera sido
probable que varios agentes hubieran resultado muertos o heridos de gravedad en el
operativo.

       El Comandante Adjunto del HRT declaró que, al proponer el asalto a la luz del
día, creyó que el FBI aún tendría la ventaja del factor sorpresa y que podría entrar a
la casa sin que hubiera un tiroteo. Después de haber oído el consejo del
Comandante Adjunto, Fraticelli ordenó el asalto a la luz del día. Sin embargo,
encontramos que la creencia de que el FBI podría sorprender a Ojeda con un asalto
con helicóptero era poco realista e incompatible con el justificativo principal para
ordenar el ataque: la inquietud de quienesquiera que hubieran detectado a los
francotiradores alertaran a Ojeda de la presencia del FBI. El equipo de asalto no
llegó al domicilio hasta casi dos horas después de que los francotiradores-
observadores informaron de su comprometimiento, proporcionando tiempo más que
suficiente para que alguien advirtiera a Ojeda y el mismo pudiera preparar su
resistencia. Además, el FBI tendría que haber reconocido que un plan de enviar los
agentes del HRT en helicóptero a una pequeña plantación ubicada a plena vista del
frente del domicilio de Ojeda generaría una gran cantidad de ruido y demoraría lo
suficiente como para permitir que Ojeda se armara previendo la llegada del FBI.

       El plan del FBI de un asalto a la luz del día fue adaptado de un plan que se
estaba preparando para un asalto subrepticio nocturno. Era poco apto para las
condiciones diurnas, sin la ventaja del elemento sorpresa. Una vez que Ojeda supo
que el FBi se dirigía a su domicilio, tuvo la ventaja del terreno alto, cobertura y
visibilidad superiores. Asimismo, el plan incluía que los agentes se acercaran a la
casa y pasaran directamente por delante de la puerta delantera y la ventana de la
cocina para llegar a los puntos de brecha, lo cual exponía a los agentes a tiros de
cerca.

       El Manual de Incidentes Críticos del FBI describe el “Plan Urgente de Asalto”
como una “medida inmediata diseñada para recuperar el control o estabilizar una
situación de crisis en deterioro rápido, la cual representa un peligro inminente para
las vidas de personas inocentes”. Concluimos que el comprometimiento informado
de los francotiradores-observadores y la posibilidad resultante de que Ojeda se
escapara no justificaba este nivel de urgencia, especialmente dada la existencia de
las alternativas disponibles.

      El Comandante Adjunto del HRT informó a la OIG que, después de que los
francotiradores-observadores informaron acerca de ser descubiertos, no se tuvo en
cuenta ninguna otra opción que no fuera el asalto directo contra el domicilio para


                                       31
arrestar a Ojeda. En vista de los riesgos asociados a esta opción, concluimos que se
debía haber dado mayor consideración a otras alternativas.

       Si bien la OIG tiene sus reservas con relación a la decisión de realizar un asalto
urgente a la luz del día, es importante señalar que no sugerimos que esta decisión
haya sido la causa de la muerte de Ojeda. Ojeda no resultó muerto o herido durante
el asalto. Ojeda fue baleado aproximadamente 100 minutos más tarde, cuando
representó un peligro de daño inminente a los agentes, y no porque el FBI hubiera
elegido la opción de asalto urgente a la luz del día.

      B.    La Opción de Rodear y Hacer Salir

      En consulta con sus especialistas, la OIG determinó que existía una opción
superior a disposición del FBI para intentar el arresto de Ojeda después del
descubrimiento informado: (1) establecer un perímetro alrededor del domicilio que
fuera suficiente para evitar que Ojeda escapara, (2) exigir que Ojeda se entregara,
dándole un plazo corto para responder, y (3) si Ojeda se negaba a entregarse, utilizar
agentes químicos (tales como gas lacrimógeno y humo) para obligar a Ojeda a salir
del domicilio. La ventaja de posición de Ojeda pudiera haberse reducido o
neutralizado en esta situación. Los francotiradores-observadores ya habían
proporcionado información pertinente asociada al domicilio, incluyendo el número de
puntos de salida de la casa que habría que cubrir. Esta información era suficiente
para que el FBI adoptara o, por lo menos, considerara este plan.

       Los motivos proporcionados por el FBI por rechazar o no considerar esta
estrategia eran preocupantes. Parecería ser que un factor fuerte para el consejo que
le dieran al SAC Fraticelli fue el hecho de que varios días antes, durante la fase de
planificación del operativo Ojeda, Fraticelli había indicado la preferencia de evitar
una “situación de sujeto atrincherado” debido al potencial de que se reunieran
multitudes de simpatizantes cerca del lugar de los hechos. Sin embargo, la
información recibida sobre el descubrimiento del operativo y la pérdida del elemento
sorpresa cambiaron las circunstancias y los riesgos comparativos asociados con cada
opción de forma tan significativa que la opción de rodear y hacer salir tendría que
haber recibido seria reconsideraciones. Creemos que el modo de pensar de evitar
una situación de atrincheramiento llevó al FBI a ignorar dicha opción al cambiar las
circunstancias.

       Reconocemos que la opción de rodear y hacer salir presentaba riesgos. Si los
agentes que intentaban establecer un perímetro no pudieran establecer posiciones de
cobertura adecuada, podrían quedar expuestos a disparos provenientes del domicilio,
especialmente si el sujeto estaba armado con un rifle. Los agentes también tuvieron
cierta incertidumbre con respecto a si podrían establecer un perímetro seguro en el
área que se creía estaba poblada por simpatizantes de los Macheteros. (De acuerdo
con los hechos, el FBI tuvo éxito en establecer dicho perímetro después de que el
agente resultó herido). Si hubiera sido necesario lanzar productos químicos dentro
de la casa, algunos agentes podrían quedar expuestos al fuego durante dicho


                                        32
procedimiento. Sin embargo, dichos riesgos para la seguridad de los agentes no eran
tan significativos como los riesgos que presentaba un intercambio previsible de
disparos, con Ojeda disparando desde una posición de cobertura contra agentes que
se acercaban a la casa directamente, o expuestos sobre el balcón, desde muy cerca.

      C.    La Opción de Extracción y Retiro

       También nos preocupa que el FBI haya dado poca o ninguna consideración a la
opción de extraer a los francotiradores-observadores, sin tomar acción inmediata
para arrestar o rodear a Ojeda en su domicilio. Al levantar esta inquietud, no
estamos concluyendo que la opción de “extracción y retiro” tendría que haber sido la
elegida en este caso. Sin embargo, cuando un sujeto no está creando una situación
de crisis que represente un peligro inminente para personas inocentes, y las opciones
disponibles para arrestar de inmediato o contener al sujeto presentan riesgos
significativos para agentes u otras personas, los comandantes de incidentes del FBI
deberían, por lo menos, considerar seriamente la posibilidad de retirarse. En este
caso, no creemos que se le haya dado más que consideración superficial a esta
opción.

      D.    Modificación de la Ruta de Aproximación

      También encontramos que el FBI podría haber modificado el plan de asalto
para reducir el riesgo asociado a las condiciones diurnas y la pérdida del elemento
sorpresa para los agentes. La ruta de asalto que el FBI tomó de un plan para una
batida subrepticia antes del amanecer – subiendo los escalones del frente de la casa y
entrando por la puerta delantera y por ventanas del frente de la casa – maximizó la
exposición de los agentes a fuego de cercano alcance proveniente del interior de la
casa. Como sabía el FBI, los lados Rojo y Negro de la casa no tenían puertas o
ventanas. Una ruta alternativa de aproximación al punto de brecha desde la esquina
Roja/Negra de la propiedad hubiera reducido la exposición de los agentes a los
disparos provenientes de la casa.

      E.    Llevar a Cabo el Arresto Durante El Grito de Lares

      No encontramos respaldo para la alegación de algunos informes de
los medios de que el FBI realizó el operativo de arresto en El Grito de Lares (23 de
septiembre) por motivos simbólicos, tal como intimidar a simpatizantes de la
independencia de Puerto Rico. El operativo se llevó a cabo en septiembre porque fue
entonces que el FBI encontró la casa de Ojeda. En realidad, el FBI planeaba arrestar
a Ojeda en horas tempranas del 24 de septiembre, el día después del feriado. Realizó
un asalto urgente el 23 de septiembre únicamente debido al descubrimiento
informado de los francotiradores-observadores.




                                      33
VIII. Evaluación de las Decisiones del FBI con Relación a la Entrada

       En esta Sección, resumimos la evaluación de la OIG de las decisiones del FBI
con relación a la demora en entrar a la casa de Ojeda después de los disparos desde
el perímetro a las 6:08 p.m. El FBI ha sido objeto de crítica por no entrar al domicilio
hasta 18 horas después de que Ojeda fue herido. Dividimos este análisis en dos
partes: decisiones tomadas antes de las 8:05 p.m. del 23 de septiembre, mientras el
SAC Fraticelli permanecía a cargo del operativo, y decisiones tomadas después de las
8:05 p.m., cuando la Sede del FBI asumió la autoridad de aprobación con respecto a
cualquier plan para entrar a la casa.

      A.    Decisiones del FBI Asociadas a la Entrada en Puerto Rico antes de
            las 8:05 p.m.

      Encontramos que, entre las 6:08 p.m. y las 8:05 p.m., el FBI en Puerto Rico
estaba siguiendo un enfoque cuidadoso y metódico en sus preparativos para entrar al
domicilio de Ojeda. El FBI ejecutó una brecha limitada del portón de entrada a las
6:49 p.m., y se estaba preparando para entrar y despejar el domicilio después de que
hubiera oscurecido y se hubiera cortado el suministro de electricidad. Las
principales consideraciones a favor de este enfoque fueron la preocupación de que
Ojeda pudiera no estar incapacitado y aún pudiera representar un peligro para los
agentes, y la creencia, basada en percepciones durante el tiroteo inicial, de que
podría haber un segundo tirador dentro del domicilio. Este enfoque fue diseñado
para explotar la ventaja táctica del HRT en la oscuridad. También proporcionaba
tiempo para obtener inteligencia sobre la situación dentro del domicilio y asegurar
que el equipo de entrada estuviera totalmente preparado. Concluimos que, si
Fraticelli hubiera conservado el control de la decisión de la entrada, es probable que
la misma hubiera ocurrido poco después de las 8:09 p.m., cuando se cortara el
suministro de electricidad a la casa.

      Las pruebas forenses disponibles indican que es probable que Ojeda haya
muerto desangrado antes de las 8:09 p.m. Como resultado, aunque se hubiera
puesto en práctica el plan de Fraticelli, es probable que Ojeda ya estuviera muerto al
ingresar el FBI al domicilio.

       Concluimos que el enfoque del FBI fue motivado por consideraciones asociadas
a la seguridad de los agentes, y no por un deseo de postergar el tratamiento médico
para Ojeda.

      Una alegación que se hizo después de la muerte de Ojeda fue que el FBI sabía
que Ojeda estaba gravemente herido debido a la aparición de una gran mancha de
sangre en el umbral de la puerta y el piso del balcón. Varios medios periodísticos de
Puerto Rico publicaron imágenes de la mancha de sangre. Sin embargo, fotos de la
escena del delito muestran que la mayor parte de la mancha ocurrió el 24 de
septiembre, cuando se movió el cuerpo de Ojeda, tirando del mismo hacia fuera por
la puerta delantera para constatar si contenía explosivos. Asimismo, es probable que


                                       34
los agentes en la escena no lograron ver la sangre que se había acumulado antes de
que se moviera el cuerpo de Ojeda, ya que su visión del umbral estaba obstaculizada
por el follaje espeso o por las rejas del balcón, según muestran las Ilustraciones A y
D. Además, no está claro que la sangre de Ojeda ya hubiera fluido hacia el umbral
antes de las 8:09 p.m., cuando se había cortado el suministro eléctrico y el balcón se
encontraba en la oscuridad. Ninguno de los agentes que entrevistamos informó
haber visto una mancha de sangre el 23 de septiembre.

      B.    Decisiones Asociadas a la Entrada Tomadas en la Sede del FBI

      A las 8:05 p.m., el Director Auxiliar Hulon informó al SAC Fraticelli que
cualquier plan para entrar al domicilio de Ojeda tendría que contar con la aprobación
previa de la División de Contraterrorismo de la Sede del FBI. Cuando Fraticelli y el
Comandante Adjunto del HRT propusieron una entrada nocturna, Hulon le instruyó
que presentara un plan de entrada por escrito. Más tarde esa noche, antes de que se
hubiera presentado cualquier plan por escrito, Hulon y el Director Auxiliar Ejecutivo
Gary Bald decidieron que no se realizaría ninguna entrada hasta que llegara un
equipo de agentes de relevo de Quantico al día siguiente. Analizamos tanto la
decisión de procedimiento de exigir la aprobación por la Sede de un plan de entrada,
como la decisión sustantiva de rechazar un operativo de entrada nocturna.

            1.     La decisión de exigir aprobación de la Sede

      Bald tomó la decisión de que la Sede asumiera el control de la decisión de
entrada. Un factor significativo en la decisión de Bald fue su evaluación de la
conducta de Fraticelli y su falta de confianza, basado en la descripción de Hulon de
sus conversaciones con Fraticelli. Bald declaró que su evaluación fue confirmada por
lo que él creyó ser indicaciones de que el HRT estaba actuando en forma
independiente de Fraticelli. La decisión de exigir la aprobación de la Sede para la
entrada fue tomada en el contexto de una creencia compartida por autoridades
superiores de la Sede de que era necesario que interviniera la misma para
proporcionar equilibrio y perspectiva a la toma de decisiones en el lugar de los
hechos.

       Le resultó difícil a la OIG evaluar la evaluación de Bald de la conducta y
confianza de Fraticelli. Hulon nos dijo que la evaluación de Bald era justa, dada la
descripción que Hulon había proporcionado a Bald de sus conversaciones con
Fraticelli. En particular, preocupó a Bald el pedido de Fraticelli de ayuda de otro
SAC y repetidas consultas asociadas a la situación de este pedido. Sin embargo, no
encontramos pruebas, basado en las decisiones tomadas en Puerto Rico entre las
6:08 p.m. y las 8:05 p.m., de que Fraticelli se sintiera agobiado o le faltara confianza
suficiente para manejar la situación. Bajo el comando de Fraticelli, el FBI en Puerto
Rico estaba prosiguiendo, con cuidado y metódicamente, la intención de realizar una
entrada nocturna al domicilio, una vez cortado el suministro eléctrico. Asimismo,
encontramos que la explicación dada por Fraticelli de su motivo para solicitar ayuda



                                        35
de un SAC particular con experiencia en Puerto Rico en el caso de una crisis
prolongada era objetivamente razonable.

       Tampoco encontramos indicios que confirmaran la impresión de Bald de que
existía algún tipo de confusión de comando entre el HRT y el SAC en Puerto Rico. La
percepción de Bald se basó en un malentendido de las acciones que ocurrían en el
lugar de los hechos, probablemente por haberse perdido la precisión en los niveles
múltiples de informes proporcionados a Bald por los agentes en el lugar de los
hechos. Además, la impresión de Bald de confusión en el comando también se basó
en una declaración incorrecta realizada por el Comandante del HRT (quien Bald creyó
que estaba en Puerto Rico, pero quien, de hecho, aún se encontraba en Quantico) de
que el HRT aún estaba a cargo. No encontramos indicaciones de que el HRT hubiera,
de hecho, asumido en última instancia el control del operativo o que el HRT estuviera
operando de manera contraria a las instrucciones del SAC Fraticelli.

       Sin embargo, tampoco encontramos que la decisión de Bald de exigir
aprobación de la Sede para un plan de entrada fuera inapropiada. No se disputa la
autoridad de la Sede de asumir dicho control. La decisión de Bald de ejercer dicha
autoridad en este caso se basó principalmente en una evaluación subjetiva de la
conducta de Fraticelli, la cual resultó difícil al OIG evaluar después del hecho. En
última instancia, la Sede era responsable por el resultado del operativo, y
autoridades superiores pueden ofrecer experiencia y perspectiva a una situación de
crisis. Si bien encontramos que algunas de las conclusiones de Bald con respecto a
las condiciones en lugar de los hechos eran imprecisas, no podemos decir que su
decisión de exigir la aprobación de la Sede para un plan de entrada no era adecuada.

       Sin embargo, encontramos que la exigencia de la Sede del FBI de que se le
presentara un plan de entrada por escrito era innecesaria e indebidamente
burocrática, especialmente si se tiene en cuenta el hecho de que autoridades de la
Sede del FBI, incluido Hulon, sabían que agentes en el lugar de los hechos creían que
Ojeda se encontraba herido y sobre el piso. Observamos, sin embargo, que Hulon
rechazó el plan para una entrada nocturna antes de que fuera presentado por escrito,
por lo tanto la exigencia de la presentación por escrito tuvo un impacto práctico
limitado en este caso.

            2.    La decisión de no entrar al domicilio

       Encontramos que la decisión de la Sede de no aprobar la entrada al domicilio
la noche del 23 de septiembre fue motivada por una preocupación asociada a la
seguridad de los agentes y el deseo de evitar más víctimas, y no un deseo de dejar
morir a Ojeda. Las siguientes consideraciones fueron factores importantes en la
decisión de la Sede: 1) los agentes en el lugar de los hechos informaron sobre la
posible presencia de un segundo tirador en el domicilio; 2) la falta de certidumbre
con relación al estado de Ojeda y si aún representaba un peligro; 3) la creencia de
que el conocimiento íntimo de Ojeda del interior del domicilio mitigaba la ventaja
táctica nocturna del HRT; 4) los agentes del HRT en el lugar de los hechos estaban


                                      36
fatigados, y se estaba enviando un equipo nuevo de agentes del HRT a Puerto Rico; y
5) podría haber dispositivos explosivos improvisados en el domicilio, los cuales serían
más difíciles de detectar de noche. Según Hulon, en consulta con Bald, estas
consideraciones pesaron más que su preocupación de que Ojeda pudiera necesitar
tratamiento médico. Creemos que la decisión tomada por Hulon con la información
que tenía disponible en ese momento no fue incorrecta.

       Sin embargo, encontramos que la distancia y los niveles múltiples de informes
entre los agentes en el lugar de los hechos y las autoridades de la Sede del FBI en
Washington afectaron la información que era la base de la decisión de no entrar a la
casa durante la noche del 23 de septiembre. Los agentes en el lugar de los hechos
creyeron, basados en lo que oyeron salir de la casa, que Ojeda había sido gravemente
herido o había resultado muerto, y a lo largo de la noche les comenzó a preocupar
menos la posibilidad de que hubiera otros sujetos en la casa. Sin embargo, sus
conclusiones no llegaron a Hulon, quien tomó su decisión basado en la creencia de
que Ojeda aún representaba un peligro y podría tener un cómplice.

       Sin embargo, la decisión de la Sede de postergar la entrada hasta el día
siguiente probablemente no tuvo ningún impacto sobre el resultado del operativo, o
sobre la muerte de Ojeda. El patólogo forense que realizó la autopsia estimó que
Ojeda murió desangrado aproximadamente de 15 a 30 minutos después de haber
recibido el impacto, por lo cual la hora de su muerte fue entre las 6:23 y las 6:38 p.m.
Esto indica que Ojeda estaba muerto antes de que la Sede asumiera el control sobre
la decisión de entrada. De hecho, de acuerdo con estimados del Instituto Forense, la
única posibilidad de salvar la vida de Ojeda hubiera sido que los agentes entraran al
domicilio poco después de las 6:08 p.m. y evacuaran a Ojeda de inmediato. Dado
que un agente había sido gravemente herido en un intento anterior de entrar al
domicilio, la incertidumbre asociada al estado de Ojeda, y la creencia de que se había
disparado más de un arma desde el interior de la casa durante el tiroteo, una acción
inmediata de entrar a la casa hubiera sido arriesgada y no se puede culpar al FBI por
utilizar un enfoque más cauteloso.


IX.   La Preparación del FBI para las Negociaciones y la Realización de las
      mismas

       La OIG también analizó la preparación del FBI para las negociaciones y la
realización de las mismas con Ojeda. Durante el cese al fuego con Ojeda después del
tiroteo inicial, dos agentes del FBI de San Juan (uno de los cuales era un negociador
certificado) intentaron comunicarse con Ojeda y convencerlo de que se entregara.
Ojeda exigió que el FBI llevara un periodista en particular al lugar de los hechos, pero
el SAC Fraticelli rechazó de inmediato la propuesta.

      Antes de dirigirse a Puerto Rico, el HRT había rechazado una oferta de la
Unidad de Negociación de Crisis del FBI en Quantico de proporcionar negociadores
para el operativo Ojeda. Concluimos que esto fue un error y que también era


                                       37
incompatible con la orientación proporcionada en el Manual de Incidentes Críticos y
el MIOG del FBI. El CONOP claramente contemplaba que este operativo no era
apenas una misión de vigilancia, sino que estaba dirigido a resultar en el arresto de
Ojeda. Dada la historia de Ojeda de resistencia violenta y el entorno operativo difícil,
era previsible que el operativo de arresto resultara en una situación de sujeto
atrincherado y que requiriera negociaciones.

       El SAC Fraticelli reconoció la posible necesidad de negociadores y realizó
algunos planes de contingencia, realizando arreglos para que dos negociadores del
FBI de San Juan estuvieran disponibles durante el operativo. Sin embargo, Fraticelli
y sus consultores tácticos integraron el componente de la negociación
inadecuadamente en el operativo. Los negociadores fueron efectivamente excluidos
de la planificación táctica del HRT y no tuvieron ninguna interacción significativa con
los agentes del HRT con respecto al posible papel de los negociadores en el operativo.
Además, los negociadores no funcionaron de acuerdo con las directrices del Programa
de Manejo de Crisis del FBI. El FBI no siguió a su norma de dos negociadores, al
enviar sólo un negociador para que conversara con Ojeda.

      Además, Fraticelli le dijo al negociador que rechazara la exigencia de Ojeda
sobre la presencia del periodista y le dijera a Ojeda que saliera con las manos en alto.
El enfoque abrupto de Fraticelli contradecía la capacitación de la CNU, la cual
enseña que un negociador nunca debe rechazar una exigencia de entrada, porque al
hacerlo puede hacer que el sujeto interrumpa las conversaciones. Creemos que es
improbable que estos errores hubieran ocurrido si el HRT hubiera destacado un
equipo de negociación de la CNU que tuviera experiencia de trabajo anterior o, por lo
menos, hubiera coordinado su planificación táctica con el equipo de negociación del
FBI de San Juan.

       Sin embargo, aunque tenemos reservas con relación a ciertos aspectos de la
preparación del FBI para las negociaciones con Ojeda y la realización de las mismas
durante el cese al fuego, no podemos concluir que hayan afectado el desenlace. De
hecho, se envió un negociador de habla hispana a la escena, el cual negoció con
Ojeda durante más de media hora. Ojeda tenía motivos para saber que su entrega
pacífica sería aceptada, según lo comprobó la entrega segura de su esposa. No
creemos que su decisión de permanecer atrincherado en su domicilio haya sido
consecuencia de la manera en que se llevaron a cabo las negociaciones con el FBI.

       Asimismo, aunque el FBI hubiera accedido a la exigencia de Ojeda, se hubieran
necesitado horas llevar al periodista a la escena y prepararlo. A las 6:08 p.m., mucho
antes de que cualquier periodista se pudiera llevar al lugar de los hechos, vieron a
Ojeda en la ventana de la cocina con un arma y se disparó el tiro fatal. Ojeda
presentó un peligro en dicho momento, y no podemos concluir que una decisión
distinta con relación al periodista hubiera probablemente alterado el desenlace.




                                        38
X.     Asuntos Varios

       A.     Las Comunicaciones del FBI con el Estado Libre Asociado de Puerto
              Rico

        El FBI recibió críticas por no haber notificado de antemano a las autoridades
del Estado Libre Asociado de Puerto Rico sobre el operativo del arresto de Ojeda.
Fraticelli nos dijo que él no notificó a las autoridades locales, en especial la Policía de
Puerto Rico, porque deseaba mantener secreto el operativo para limitar la posibilidad
de filtraciones de informaciones comprometedoras. 10

      Las normas del FBI proporcionan al SAC la autoridad para decidir si notificar a
las autoridades de operativos en su jurisdicción. El limitar quién tiene conocimiento
de un operativo o quién participa del mismo donde el éxito depende del elemento
sorpresa es una precaución legítima, y no encontramos que el ejercicio por Fraticelli
de dicha autoridad sea inadecuado en este caso.

      El FBI también recibió críticas por proporcionar a las autoridades
gubernamentales de Puerto Rico información incompleta e insatisfactoria sobre los
motivos para la demora en entrar. Las explicaciones proporcionadas a las
autoridades por el FBI – la falta de personal y equipos técnicos, fatiga de los
agentes – también resultó en acusaciones de que la falta de preparación adecuada del
FBI para el operativo resultó en que Ojeda muriera desangrado innecesariamente.
Como detallamos anteriormente, determinamos que la demora se debió
principalmente a inquietudes de buena fe asociadas a la seguridad de los agentes y
basadas en la creencia de que podría haber un segundo tirador en el domicilio y que
Ojeda podría aún representar un peligro. Al dejar pasar varias oportunidades de
proporcionar una explicación mejor y más completa por la demora a las autoridades
de Puerto Rico, incluyendo estas inquietudes con relación a la seguridad, el FBI
contribuyó para que se criticara su conducta.

       B.     Oportunidades Anteriores para Aprehender a Ojeda

      En las semanas anteriores al incidente, se hicieron alegaciones de que el FBI
podría tener información suficiente sobre el paradero y hábitos de Ojeda a lo largo de
varios años como para arrestar a Ojeda en forma segura, lejos de su casa.
Determinamos que, si bien el FBI había recibido anteriormente información que
sugería la posible presencia de Ojeda en Hormigueros, el FBI no dejó pasar
intencionalmente oportunidades de arrestar a Ojeda en otro lugar.




       10 La POPR estaba, en general, al tanto de que el FBI había estado intentando ubicar a
Ojeda, y había prestado cierta asistencia al FBI para dicha finalidad.


                                             39
XI.   Recomendaciones

       Nuestro análisis identificó una serie de deficiencias en la conducta del FBI con
relación al operativo de vigilancia y arresto de Ojeda. La mayoría de las
recomendaciones tienen la finalidad de destacar lecciones que creemos deben
informar a la planificación y capacitación relacionada con futuros operativos del FBI.
Otras recomendaciones tratan de problemas asociados a problemas específicos
relacionados con políticas o tácticas. Resumimos las diez recomendaciones a
continuación.

      A.    Recomendaciones Asociadas al Cumplimiento de la Política de
            Fuerza Mortal del Departamento de Justicia [Department of Justice
            (DOJ)] y asuntos Relacionados

Recomendación No. 1: Realizar una indagación asociada a los tres disparos del
agente del FBI no identificado y los dos disparos no informados por parte de un
agente conocido

       Una vez concluidas las investigaciones penales asociadas a este incidente, el
FBI debe realizar una indagación asociada a los tres disparos por un agente no
identificado del FBI a través de la puerta delantera del domicilio de Ojeda y los dos
disparos no informados hechos por un agente conocido, a fin de determinar si los
mismos fueron disparados de acuerdo con la Política de Fuerza Mortal del DOJ.

Recomendación No. 2: Realizar una revisión del uso de “flash-bangs” en operativos al
aire libre.

      El FBI debería revisar el uso de granadas “flash-bang” al aire libre y bajo
circunstancias en las que el uso de las mismas podría tener el efecto no intencional
de alertar al sujeto o proporcionar una impresión equivocada de que el FBI está
abriendo fuego contra un sujeto.

Recomendación No. 3: Adoptar un procedimiento de “carga estándar” para agentes
del HRT.

      El HRT del FBI debería adoptar un procedimiento de carga estándar que
permitiera determinar la cantidad de disparos hechos por cada agente después de
cada incidente. Otros componentes del FBI deberían adoptar procedimientos
similares en la medida en que ya no hayan sido implementados.

      B.    Recomendaciones Asociadas a la Decisión de Realizar un Asalto
            Urgente Diurno

Recomendación No.4: Considerar adecuadamente todas las opciones disponibles en
situaciones de urgencia, según lo permita el tiempo.



                                       40
       Encontramos que no se consideraron cursos de acción alternos después del
descubrimiento de los francotiradores-observadores, a pesar del aumento
significativo del riesgo para los agentes del FBI asociado a un asalto de urgencia
diurno contra el domicilio de Ojeda. Este caso destaca la importancia de considerar
opciones de manera adecuada en situaciones de urgencia, incluyendo la revisión de
opciones que puedan descartarse en el plan inicial (tal como la opción de rodear y
hacer salir), y estar preparados para considerar cómo el cambio de circunstancias
afecta la viabilidad de los planes originales.

Recomendación No. 5: Mejorar la aptitud en el idioma español de los equipos de
francotiradores-observadores del HRT.

       Dada la predominancia del idioma español como el idioma principal de la
mayoría de los puertorriqueños, incluyendo Ojeda y su esposa, y la necesidad de
identificar a Ojeda, creemos que el FBI tendría que haber previsto que los
francotiradores-observadores del HRT pudieran necesitar comprender conversaciones
en español. Por lo tanto, hubiera sido útil contar con agentes de habla hispana en el
equipo de francotiradores-observadores. El HRT debe tener en cuenta esta necesidad
en operaciones futuras y mejorar la aptitud asociada al idioma español de sus
equipos de francotiradores-observadores.

      C.    Recomendación Asociada a las Decisiones de Entrada del FBI

Recomendación No. 6: Asegurar que, si la toma de decisiones en incidentes críticos
se asigna a la Sede del FBI, exista comunicación adecuada entre el campo y la Sede
con relación a la situación en el lugar de los hechos y las decisiones que se tomen en
la Sede.

       La participación de la Sede del FBI puede aportar significativa experiencia
operativa a incidentes de crisis y puede proveer perspectiva con relación a cómo las
decisiones en un incidente puedan tener impacto sobre las operaciones del FBI en un
sentido más amplio. La participación de la Sede también puede aportar una medida
de deliberación y precaución a incidentes de crisis que podrían, de otra forma, no
existir. Sin embargo, este caso demostró cómo la distancia de los gestores con
respecto al lugar de un incidente de crisis puede afectar la sustancia y proceso de la
toma de decisiones. En respuesta al operativo Ojeda, el FBI debe considerar con
cuidado las condiciones bajo las cuales asumirá el control de un incidente de crisis.
El FBI debe también evaluar cómo asegurar que la información adecuada fluya a las
autoridades de la Sede que deben aprobar las decisiones operativas, y cómo el FBI
asegurará comunicación adecuada entre la Sede del FBI y los comandantes en el
lugar de los hechos.

Recomendación No. 7: Asegurar que la aparente falta de comunicación entre el
Comandante del HRT y el Comandante Adjunto y la discrepancia de cadena de
mando no se repitan.



                                       41
      La dirección del CIRG y el HRT deben revisar la discrepancia de cadena de
mando demostrada por la orden del Comandante del HRT al Comandante Adjunto de
que el HRT no entrara al domicilio de Ojeda, así como la aparente falta de
comunicación entre el Comandante y el Comandante Adjunto con relación a esta
orden. Fraticelli, el SAC de Puerto Rico, era el comandante de la operación, y el
Comandante del HRT no tenía la autoridad de tomar decisiones tácticas o dar
órdenes como esta. El FBI debe tomar las medidas correspondientes para asegurar
que se evite esta situación en operaciones futuras del HRT.

Recomendación No. 8: Proporcionar orientación con relación a las circunstancias
bajo las cuales los planes operativos provenientes del campo deben presentarse a la
Sede para aprobación, oralmente o por escrito.

       El Director Auxiliar Hulon exigió que el SAC Fraticelli y el HRT presentaran su
propuesta de entrada nocturna al domicilio de Ojeda por escrito, en circunstancias
en las que una propuesta oral hubiera sido suficiente y adecuada. Uno de los
motivos por los cuales Hulon exigió que la propuesta fuera por escrito fue que
consideró que era un procedimiento estándar. La política del FBI permite el uso de
órdenes orales, en lugar de órdenes de arresto por escrito, en “circunstancias que
exijan acción inmediata”. El FBI debe considerar proporcionar mayores orientaciones
relacionadas a qué circunstancias debe considerarse que “exigen acción inmediata”
para esta finalidad.

      D.    Recomendaciones asociadas a las preparaciones del FBI para las
            negociaciones y la realización de las mismas

Recomendación No. 9: Evaluar en forma adecuada si un operativo de arresto podría
resultar en una situación que requiera negociaciones.

      El FBI debe utilizar este caso en la planificación y capacitación de operativos
futuros para ilustrar la importancia de considerar cautelosamente si se debe destacar
a negociadores bajo circunstancias en las que una situación que requiera
negociaciones es razonablemente previsible, aunque no deseable.

Recomendación No. 10: Asegurar que los negociadores estén integrados en la
planificación táctica, donde exista una necesidad potencial de negociaciones.

       El reconocer que puedan requerirse negociadores en una operación es apenas
el primer paso en la planificación del uso potencial de los mismos. Como disponen
las directrices del FBI, la negociación eficaz exige que los negociadores estén
integrados en la planificación táctica de un operativo. Esto no ocurrió en este caso.
El FBI debería utilizar este caso para recalcar la importancia de integrar a
negociadores en la planificación táctica de operativos, donde negociaciones puedan
ser necesarias.




                                       42
XII.   Conclusión

       En este informe, hemos examinado el operativo del FBI para arrestar a Ojeda y
diversos problemas asociados al mismo. Hemos concluido que el uso de fuerza
mortal por los agentes del FBI, incluyendo el disparo que alcanzó y mató a Ojeda, no
violó la Política de Fuerza Mortal del DOJ. También hemos examinado las decisiones
del FBI de postergar la entrada al domicilio hasta 18 horas después de que Ojeda
fuese alcanzado por la bala. Encontramos que las decisiones estuvieron motivadas
por inquietudes asociadas a la seguridad de los agentes, y no por un deseo de negarle
atención médica a Ojeda o dejarlo morir. La decisión de las autoridades de la Sede
del FBI de postergar la entrada para el día siguiente refleja un equilibrio de buena fe
realizado con la información que poseían, aunque determinamos que la percepción de
las autoridades de la Sede con relación al peligro que significaba la entrada
discrepaba significativamente de la percepción de los agentes en el lugar de los
hechos.

       Analizamos otros aspectos del operativo, incluyendo la planificación del asalto
contra el domicilio y las negociaciones del FBI con Ojeda. Encontramos problemas
en la toma de decisiones en estas áreas. Concluimos que las decisiones se vieron
perjudicadas por la consideración inadecuada de opciones alternativas y preparación
inadecuada para situaciones previsibles.

       Si bien no concluimos que ninguna de las acciones de los oficiales del FBI
constituyó conducta indebida, encontramos que varias de sus decisiones fueron
deficientes por haber reflejado una evaluación inadecuada de las circunstancias
conocidas, o por haber sido contrarias a, o incompatibles con las directrices
aplicables del FBI. Por estos motivos, hemos destacado varias de estas decisiones
como asuntos de desempeño que creemos que el FBI debería examinar.

      Finalmente, realizamos diez recomendaciones sistémicas en el informe,
asociadas a problemas que encontramos en el operativo del arresto de Ojeda.
Nuestras recomendaciones sistémicas tienen la finalidad de mejorar la planificación y
conducción de operativos de arresto futuros del FBI. Creemos que, si se les
implementa, es posible que ayuden al FBI a evitar algunos de los problemas que
ocurrieron en el operativo de arresto de Ojeda.




                                       43
